<html>
<title> - THE DAWN OF ARTIFICIAL INTELLIGENCE</title>
<body><pre>[Senate Hearing 114-562]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-562

                  THE DAWN OF ARTIFICIAL INTELLIGENCE

=======================================================================

                                 HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON SPACE, SCIENCE, 
                          AND COMPETITIVENESS

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 30, 2016

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       U.S. GOVERNMENT PUBLISHING OFFICE
24-175 PDF                     WASHINGTON : 2017                       
_________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="680f1807280b1d1b1c000d0418460b070546">[email&#160;protected]</a>  
     
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 
                                 
                                 
                             ----------                               

          SUBCOMMITTEE ON SPACE, SCIENCE, AND COMPETITIVENESS

TED CRUZ, Texas, Chairman            GARY PETERS, Michigan, Ranking
MARCO RUBIO, Florida                 EDWARD MARKEY, Massachusetts
JERRY MORAN, Kansas                  CORY BOOKER, New Jersey
DAN SULLIVAN, Alaska                 TOM UDALL, New Mexico
CORY GARDNER, Colorado               BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 30, 2016................................     1
Statement of Senator Cruz........................................     1
    Prepared statement of Dr. Andy Futreal, Chair, Department of 
      Genomic Medicine, The University of Texas MD Anderson 
      Cancer Center..............................................     5
Statement of Senator Peters......................................     2
Statement of Senator Nelson......................................     4
Statement of Senator Schatz......................................    42
Statement of Senator Thune.......................................    44
Statement of Senator Daines......................................    47

                               Witnesses

Eric Horvitz, Technical Fellow and Director, Microsoft Research--
  Redmond Lab, Microsoft Corporation; Interim Co-Chair, 
  Partnership on Artificial Intelligence.........................     7
    Prepared statement...........................................     8
Dr. Andrew W. Moore, Dean, School of Computer Science, Carnegie 
  Mellon University..............................................    17
    Prepared statement...........................................    19
Greg Brockman, Co-Founder and Chief Technology Officer, OpenAI...    26
    Prepared statement...........................................    28
Dr. Steve A. Chien, Technical Group Supervisor, Artificial 
  Intelligence Group, Jet Propulsion Laboratory, National 
  Aeronautics and Space Administration...........................    31
    Prepared statement...........................................    33

                                Appendix

Letter dated November 30, 2016 to Hon. Ted Cruz and Hon. Gary 
  Peters from Marc Rotenberg, EPIC President and James Graves, 
  EPIC Law and Technology Fellow.................................    51

 
                  THE DAWN OF ARTIFICIAL INTELLIGENCE

                              ----------                              


                      WEDNESDAY, NOVEMBER 30, 2016

                               U.S. Senate,
       Subcommittee on Space, Science, and Competitiveness,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Ted Cruz, 
Chairman of the Subcommittee, presiding.
    Present: Senators Cruz [presiding], Thune, Daines, Peters, 
Nelson, and Schatz.

              OPENING STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. This hearing will come to order.
    Good afternoon. Welcome to each of the witnesses. Thank you 
for joining us. Thank you everyone, for attending this hearing.
    Throughout history, mankind has refused to accept the 
complacency of the status quo and has instead looked to harness 
creativity and imagination to reshape the world through 
innovation and disruption. The Industrial Revolution, Henry 
Ford's moving assembly line, the invention of flight and 
commercial aviation, and, more recently, the creation of the 
Internet have all acted as disruptive forces that have not only 
changed the way we live, but have been engines for commerce 
that have offered consumers enormous freedom.
    Today, we're on the verge of a new technological 
revolution, thanks to the rapid advances in processing power, 
the rise of big data, cloud computing, mobility due to wireless 
capability, and advanced algorithms. Many believe that there 
may not be a single technology that will shape our world more 
in the next 50 years than artificial intelligence. In fact, 
some have observed that, as powerful and transformative as the 
Internet has been, it may be best remembered as the predicate 
for artificial intelligence and machine learning.
    Artificial intelligence is at an inflection point. While 
the concept of artificial intelligence has been around for at 
least 60 years, more recent breakthroughs, such as IBM's chess-
playing Deep Blue victory over world champion Gary Kasparov, 
advancements in speech recognition, the emergence of self-
driving cars, and IBM's computer Watson's victory in the TV 
game show Jeopardy have brought artificial intelligence from 
mere concept to reality.
    Whether we recognize it or not, artificial intelligence is 
already seeping into our daily lives. In the healthcare sector, 
artificial intelligence is increasingly being used to predict 
diseases at an earlier stage, thereby allowing the use of 
preventative treatment, which can help lead to better patient 
outcomes, faster healing, and lower costs. In transportation, 
artificial intelligence is not only being used in smarter 
traffic management applications to reduce traffic, but is also 
set to disrupt the automotive industry through the emergence of 
self-driving vehicles. Consumers can harness the power of 
artificial intelligence through online search engines and 
virtual personal assistants via smart devices, such as 
Microsoft's Cortana, Apple's Siri, Amazon's Alexa, and Google 
Home. Artificial intelligence also has the potential to 
contribute to economic growth in both the near and long term. A 
2016 Accenture report predicted that artificial intelligence 
could double annual economic growth rates by 2035 and boost 
labor productivity by up to 40 percent.
    Furthermore, market research firm Forrester recently 
predicted that there will be a greater-than-300-percent 
increase in investment in artificial intelligence in 2017 
compared to 2016. While the emergence of artificial 
intelligence has the opportunity to improve our lives, it will 
also have vast implications for our country and the American 
people that Congress will need to consider, moving forward.
    Workplaces will encounter new opportunities, thanks to 
productivity enhancements. As artificial intelligence becomes 
more pervasive, Congress will need to consider its privacy 
implications. There is also a growing interest in this 
technology from foreign governments who are looking to harness 
this technology to give their countries a competitive advantage 
on the world stage.
    Today, the United States is the preeminent leader in 
developing artificial intelligence. But, that could soon 
change. According to The Wall Street Journal, ``The biggest 
buzz in China's Internet industry isn't about besting global 
tech giants by better adapting existing business models for the 
Chinese market; rather, it's about competing head-to-head with 
the U.S. and other tech powerhouses in the hottest area of 
technological innovation: artificial intelligence.'' Ceding 
leadership in developing artificial intelligence to China, 
Russia, and other foreign governments will not only place the 
United States at a technological disadvantage, but it could 
have grave implications for national security.
    We are living in the dawn of artificial intelligence. And 
it is incumbent that Congress and this subcommittee begin to 
learn about the vast implications of this emerging technology 
to ensure that the United States remains a global leader 
throughout the 21st century. This is the first congressional 
hearing on artificial intelligence. And I am confident it will 
not be the last, as this growing technology raises 
opportunities and potential threats at the same time.
    I look forward to hearing from our distinguished panel of 
experts today.
    And, at this point, I'll yield to our subcommittee's 
Ranking Member, Senator Peters, to give an opening statement.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Well, thank you, Chairman Cruz, for calling 
this very important meeting.
    And I'd like to thank the witnesses for taking the time, as 
well. And look forward to hearing your expertise on this 
exciting area.
    You know, certainly, our Nation's history has always been 
defined, in my mind, by our ongoing search for the next 
innovation, the next big thing that's going to advance our 
economy and our society. Our mastery of manufacturing and 
automation helped the United States establish its industrial 
and military might.
    Looking to the future, we must continue to harness this 
American drive to discover, to create the next big advancement, 
and to keep our Nation on the cutting edge. Over the last few 
decades, technology has changed the way we make and how we make 
it. Today, we boast an ever-evolving innovation ecosystem 
that's rooted in robotics, machine learning, and, the subject 
of today's hearing, artificial intelligence.
    AI products like our smartphones, intelligent personal 
assistant, or our banks' fraud detection technology are already 
improving the day-to-day lives of Americans. New advances in 
computer processing and cloud computing are driving rapid 
expansion in AI development in industries as diverse as 
healthcare, transportation, education, and security. And 
they've all gone through enormous change, as all of you know.
    We as a society need to help foster this broader ecosystem 
so we can capitalize on its benefits, including cleaner energy, 
new economic growth, improved safety and health, and greater 
accessibility for the elderly and disabled populations.
    Being from Michigan, I've had the opportunity to experience 
firsthand the development of self-driving cars that are made 
possible by a combination of advanced automatic braking and 
lane-changing systems, cameras, sensors, high-performance 
computing, deep learning systems, 3D high-definition maps, and 
artificial intelligence.
    Just last year, over 35,000 people died in motor vehicle 
crashes, but research suggests that about 94 percent of those 
accidents were the result of human error. With safe deployment, 
AI-fueled automated vehicles could significantly decrease this 
number, saving countless thousands of lives.
    In addition, the World Economic Forum estimates that the 
digital transformation of the automotive industry alone--just 
the automotive industry alone--will generate $67 billion in 
value for the sector and yield $3.1 trillion in societal 
benefits before 2025. That's billions injected into our economy 
to boost our competitiveness, and billions saved due to major 
reductions in auto accident injuries and deaths, environmental 
degradation caused by traffic congestion and air pollution. 
More broadly, U.S. technology companies spent eight and a half 
billion dollars on AI in 2015, more than four times the amount 
spent in 2010. And experts predict incredible growth in the 
coming years in the healthcare, marketing, and finance sectors.
    A critical component of this subcommittee's work is 
promoting and preserving American competitiveness. And, while 
the U.S. leads the world in investment and discoveries in AI, 
as we all know and as Chairman mentioned, China is quickly 
catching up. In 2014, Chinese scientists overtook U.S. 
scientists in terms of new papers published and citations of 
published papers in the area of deep learning, a cutting edge 
of AI research.
    Like computer processing, nanotechnology, and 
biotechnology, AI has the power to dramatically change and grow 
the economy, but we must invest in research and in STEM 
education to maintain our competitive advantage. Analysts by 
the Council of Economic Advisors shows that doubling or 
tripling all research investment, something that I fully 
support, will allow us to continue to grow. However, targeting 
increases in areas of high economic productivity, like AI, may 
offer benefits with much smaller budgetary impact. In fact, a 
recent report from the White House recommends that current 
government spending on AI research should be doubled or even 
quadrupled to achieve optimal economic growth. I certainly look 
forward to hearing your comments on that.
    We've already seen enormous gains from Federal investment 
in this area through NASA's work to develop AI applications for 
use in robotic spacecraft missions. These applications include 
planning, spacecraft autonomy, image processing, and rover 
autonomy. NASA also utilizes AI and Earth-observing satellites 
to optimize observations of natural disasters, like volcanic 
eruptions. And I look forward to hearing more about this 
pioneering work by NASA and the ways in which other industries 
have benefited from date.
    And finally, while we must strive to optimize the full 
economic potential of AI, we must also address its potential 
impacts on the workforce. While new jobs will be created 
because of AI, we also have to think critically about the steps 
we can take today and in coming years to make sure that 
American workers are not left behind.
    The Subcommittee plays a unique role in studying emerging 
technologies and examining ways to promote and harness 
scientific advancement for the greater good. I appreciate the 
Chairman's interest in this important issue. I look forward to 
working with him and continuing to advance development at AI 
for the greater good. And that's why I look with great 
anticipation to the testimony from each of you.
    Thank you.
    Senator Cruz. Thank you, Senator Peters.
    We'd now recognize the Ranking Member of the full 
committee, Senator Nelson, for an opening statement.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Indeed, AI has helped the space program quite a bit. I'm 
delighted that a representative from JPL is here. JPL are the 
wiz kids, the rock stars. And, in fact, they are rocket 
scientists.
    There's another part about AI, and that is the replacement 
of jobs. We've got to prepare for that. For example, Elon Musk 
recently predicted, in an interview with CNBC, that robots 
could eventually take many jobs away from folks and that they 
would have to depend on the government in order to have a 
living. Elon used the example of truck drivers, who could be 
displaced in the future by autonomous vehicles and those kind 
of advancements that would allow trucks to drive themselves. 
And yet, if a whole occupation is suddenly displaced, what do 
we do? We just came through an election where the loss of jobs 
was a big topic. Maybe truck drivers don't want to be trained 
to go on a computer. So, what are we going to do for the 
future? This is just another challenge that we face as 
technology advances. And that's why we're here today.
    So, thanks. I'm looking forward to it.
    Senator Cruz. Thank you, Senator Nelson.
    I'd now like to introduce our witnesses.
    The first witness is Dr. Eric Horvitz, who is the interim 
Co-Chair of the Partnership on Artificial Intelligence and 
serves as the Managing Director of the Microsoft Research 
Redmond Lab. Dr. Horvitz's research contributions span 
theoretical and practical challenges with computing systems 
that learn from data and that can perceive, reason, and decide. 
His efforts have helped to bring multiple systems and services 
into the world, including innovations in transportation, 
healthcare, aerospace, e-commerce, online services, and 
operating systems.
    Dr. Andrew Moore is the Dean of the School of Computer 
Science at Carnegie Mellon University. Dr. Moore's background 
is in statistical machine learning, artificial intelligence, 
robotics, and statistical computation of large volumes of data, 
including decision and control algorithms.
    Mr. Greg Brockman is the Cofounder and Chief Technology 
Officer of OpenAI, a nonprofit artificial intelligence research 
company. Prior to OpenAI, Mr. Brockman was the CTO of Stripe, a 
financial technology company that builds tools enabling Web 
commerce.
    And Dr. Steve Chien is the Technical Group Supervisor of 
the Artificial Intelligence Group and the Senior Research 
Scientist in the Mission Planning and Execution Section at 
NASA's Jet Propulsion Laboratory.
    I would also note that Dr. Andrew Futreal was set to 
testify at our hearing today, but, unfortunately, due to 
weather issues, he was unable to travel to D.C. today. Dr. 
Futreal is the Chair of the Department of Genomic Medicine at 
The University of Texas MD Anderson Cancer Center, in my 
hometown of Houston. We thank him for his previously submitted 
written testimony. And if there are no objections, I would like 
to submit Dr. Futreal's testimony into the hearing record.
    [The prepared statement of Dr. Futreal follows:]

 Prepared Statement of Dr. Andy Futreal, Chair, Department of Genomic 
      Medicine, The University of Texas MD Anderson Cancer Center
    Subcommittee Chairman Cruz, Ranking Member Peters, and members of 
this committee, thank you all very much for the opportunity to testify 
before you today. My name is Andy Futreal and I am Chair of the 
Department of Genomic Medicine at The University of Texas MD Anderson 
Cancer Center.
    We are now entered into a completely unprecedented time in the 
history of medicine. We have the ability to investigate the fundamental 
molecular underpinnings of disease, to leverage technology and 
computational capabilities with the real prospect of fundamentally 
altering the natural history of disease. We can now determine each 
individual's genetic blueprint with relative speed and accuracy at a 
cost of less than a millionth of the price tag of the first human 
genome sequenced just a little more than 13 years ago. We are moving 
into an era of tackling the sequencing of very large groups of 
individuals and defining the role of common variation, that which is 
shared by more than 1-5 percent of the population, in health, risk and 
disease. The challenge of reducing this watershed of data into 
practical implementation to improve human health and provide better 
care for patients is upon us. The opportunities to improve and tailor 
healthcare delivery--the right drug for the right patient at the right 
time with the right follow-up--are being driven by exploiting 
computational approaches and so-called ``big data''. AI and machine 
learning approaches have the potential to help drive insights and 
deliver improved standards of care. Taking oncology as the proving 
ground where a very great deal of these efforts are currently focused, 
there are several challenges, opportunities and issues that present 
themselves.
    The clinically meaningful implementation of machine-assisted 
learning and AI is, of course, crucially dependent on data--lots of it. 
Herein lies perhaps the biggest challenge. Substantial and varied 
clinical data is generated on every patient cared for every day. These 
data are generally held in non-interoperable systems whose principle 
purpose is to facilitate tracking of activities/services/tests for 
billing purposes. The richest clinical data is effectively locked in 
various dictated and transcribed notes detailing patients' clinical 
course, responses, problems and outcomes from the various treatments/
interventions undertaken. We need to further develop capabilities to 
both get these data from their source systems and standardize their 
ongoing collection as practically as possible.
    As well, a proportion of those under our care take part in research 
studies, generating research data in both the clinical and more 
translational/basic science realms. These data, including increasing 
amounts of detailed large-scale genomic sequencing information, are not 
generally available for integration with clinical data on a per-patient 
or aggregate basis in a way that would facilitate implementation of 
advanced analytics. The ability to purposefully integrate clinical and 
research data for analytics, without the need for predetermining and 
rigidly standardizing all data inputs up front is what is needed.
    There are substantial opportunities for AI, again anchoring in 
oncology by way of example. Perhaps the most concise way of framing 
where we need to be headed, in my view, is the concept of real-time 
``patients like mine'' analytics. Leveraging clinical, molecular, 
exposure and lifestyle data of patients that have been treated before 
to understand and predict what the best choices are for the current 
patient. But even more so, not just choice of therapeutic but how to 
improve and intercede as needed in management such that positive 
outcome chances are maximized. We need to make predictive analytics the 
norm, learning from every patient to improve the outcome of the next. 
Importantly, we need to be thinking now about training our best and 
brightest in the next generation of physicians and medical 
professionals to drive this progress, as it will take a new wave of 
computationally savvy individuals to build, train and grow these 
systems. Further, we need to think carefully about how we promote data 
sharing, particularly in the clinical arena. Open access is a laudable 
goal, but one that must be tempered with the relevant privacy and 
security practices. Facilitated collaboration on specific topics with 
honest broker mechanisms to demonstrate rapid progress and real value 
in data sharing early will, I think, be key.
    At MD Anderson, we have been exploring the possible utilities of AI 
and related technologies in collaboration with IBM. We are utilizing 
the Watson platform for cognitive computing to train an expert system 
for patient-centric treatment recommendation and management. Currently, 
we are evaluating performance in the context of lung cancer. Future 
work reflects the challenges and opportunities that the entire field 
faces--namely that of what to deploy in the near-term where 
dissemination of expert knowledge in the context of rule-based 
approaches could have significant impact on potentially improving 
standard of care and where to take efforts in the longer term with 
learning, AI type approaches.
    The ability to have data-driven, AI empowered point-of-care 
analytics holds the promise of improving the standard of care in 
medically underserved areas, of guaranteeing that every patient--
regardless of zip code--can be assured of up-to-date and appropriate 
care taking into account their own particular data and circumstance. A 
massive undertaking to be sure, but one that is, I believe, within our 
collective grasp.
    I thank you again for the opportunity to testify before this 
committee and I would be happy to answer any questions you may have.

    Senator Cruz. With that, we will move to the testimony, 
although I will note for each of you that your experience and 
wisdom in this topic will be welcomed and sorely needed, and 
intelligence, artificial or otherwise, is not something we deal 
with often, because this is the United States Congress.
    [Laughter.]
    Senator Cruz. And with that, Dr. Horvitz, you may give your 
testimony.

        STATEMENT OF ERIC HORVITZ, TECHNICAL FELLOW AND

           DIRECTOR, MICROSOFT RESEARCH--REDMOND LAB,

    MICROSOFT CORPORATION; INTERIM CO-CHAIR, PARTNERSHIP ON 
                    ARTIFICIAL INTELLIGENCE

    Dr. Horvitz. Thank you, Chairman Cruz, Ranking Member 
Peters, and members of the Subcommittee. And good afternoon. 
And thank you for hosting this discussion on AI. It's fabulous.
    To start, AI is not one thing. AI is a constellation of 
disciplines, including computer vision, machine learning, 
language understanding, reasoning and planning, and robotics, 
but they're all aimed at a shared aspiration, the scientific 
understanding of thought and intelligent behavior, and in 
developing computing systems based on these understandings.
    Many advances over the 60-year history of AI have now--are 
now actually part of our daily lives. Just consider the AI 
route-planning algorithms we use daily in our GPS systems. And, 
while we've seen many advances over time, it's clear that we're 
now at an inflection point. We're seeing an acceleration of AI 
competencies in many areas. And the inflection is driven by a 
confluence of several factors. And these include the 
unprecedented quantities of data that have come available with 
the widespread digitization of our lives, increases in 
computing power over time, and the recent jumps in the prowess 
of our algorithms, the methods we use, particularly machine-
learning methods that learn to predict and to diagnose from 
data.
    The advances are putting unprecedented technologies in the 
hands of people, including real-time speech-to-speech 
translation among languages now available from Microsoft's 
Skype services, and computer vision for assisting drivers. AI 
technology that is already available today could save thousands 
of lives and many billions of dollars if properly translated 
into practice. And these key--and the key opportunities before 
us include healthcare, transportation, education, as well as 
agriculture, manufacturing, and increasing accessibility for 
those with special needs. Other directions that are critical 
include using AI advances to enhance the resilience and 
capacity of critical infrastructure, like our electrical power 
grid and road network.
    So, let's take as an example healthcare, to start. It's--AI 
is a veritable sleeping giant for healthcare. AI technologies 
will be extremely valuable for handling acute as well as 
chronic illnesses and for making our hospitals safer. As an 
example, we've built systems that can predict patient outcomes 
and that make patient-specific recommendations to allocate 
scarce resources. And these prototypes have been applied to 
address such challenges as chronic diseases, hospital 
readmissions, hospital-associated infections, and catching 
preventable errors in hospitals responsible for over a quarter 
of a million deaths per year in the United States.
    And, while on the topic of saving lives, advances in 
pattern-recognition systems enable us to develop effective 
automated braking and control systems that will keep us safer. 
We could take a big cut out of those 30,000 deaths that we've 
become accustomed to tolerating every year in our country. And 
we don't often think about the 300,000 incapacitating injuries 
on our roads every year.
    Numerous other AI innovations can help with safe driving. 
This week, we just published--our team just published results 
that show how we can leverage data from Minneapolis to build a 
routing system that identifies the safest routes to take, 
considering a multitude of factors at any moment, even how the 
sun is shining and the glare that it produces.
    Moving forward, key research directions in AI include 
focusing on human-AI collaboration, ensuring the robustness, 
safety, and security of AI systems, and identifying and 
addressing the ethical, legal, economic, and broader societal 
influences of AI.
    As an example of important research, we need to endow 
systems with the ability to explain their reasoning to people. 
People need to trust systems to use them effectively. And such 
trust requires transparency. There's also important work to be 
done with developing robust and resilient AI systems, 
especially when these systems are used for high stakes, safety-
critical applications amidst the complexities of the open 
world.
    We must also be aware that AI systems can present new kinds 
of attack surfaces that can be disrupted by cyberattacks, so 
it's important to address rising cyber vulnerabilities as we 
develop and field these more capable AI systems.
    Another area of importance is the influence of AI on our 
Nation's workforce and economy. And, while estimates vary, the 
economic influence of AI will likely be in multiples of 
trillions of dollars. However, along with the expected benefits 
come concerns with how AI will affect jobs and income 
disparities. And these are important issues. We must closely 
reflect, monitor, and plan to ensure a smooth transition to a 
world where AI plays a more important role.
    One thing for sure is that we urgently need to prioritize 
the training and retraining of the U.S. workforce so that our 
workforce skills are aligned with needs. We also need to double 
down on investments in STEM education and training. And, moving 
forward, continued strong and public and private sector support 
of research and studies on the scientific and socioeconomic 
challenges of AI will be critical to ensuring that people in 
society get the most out of AI advances.
    So, in summary, we expect AI advances to raise our quality 
of life, to empower citizens in new ways. But, with--as with 
any technical advance, we need to invest efforts to study and 
address potential challenges, concerns, inequities that may 
come along with the benefits that we expect from AI.
    Thanks very much.
    [The prepared statement of Dr. Horvitz follows:]

  Prepared Statement of Eric Horvitz, Technical Fellow and Director, 
         Microsoft Research--Redmond Lab, Microsoft Corporation

  ``Reflections on the Status and Future of Artificial Intelligence''

    Chairman Cruz, Ranking Member Peters, and Members of the 
Subcommittee, my name is Eric Horvitz, and I am a Technical Fellow and 
Director of Microsoft's Research Lab in Redmond, Washington. While I am 
also serving as Co-Chair of a new organization, the Partnership on 
Artificial Intelligence, I am speaking today in my role at Microsoft.
    We appreciate being asked to testify about AI and are committed to 
working collaboratively with you and other policymakers so that the 
potential of AI to benefit our country, and to people and society more 
broadly can be fully realized.
    With my testimony, I will first offer a historical perspective of 
AI, a definition of AI and discuss the inflection point the discipline 
is currently facing. Second, I will highlight key opportunities using 
examples in the healthcare and transportation industries. Third, I will 
identify the important research direction many are taking with AI. 
Next, I will attempt to identify some of the challenges related to AI 
and offer my thoughts on how best to address them. Finally, I will 
offer several recommendations.
What is Artificial Intelligence?
    Artificial intelligence (AI) refers to a set of computer science 
disciplines aimed at the scientific understanding of the mechanisms 
underlying thought and intelligent behavior and the embodiment of these 
principles in machines that can deliver value to people and society.
    A simple definition of AI, drawn from a 1955 proposal that kicked 
off the modern field of AI, is pursuing how ``to solve the kinds of 
problems now reserved for humans.'' \1\ The authors of the founding 
proposal on AI also mentioned, ``We think that a significant advance 
can be made in one or more of these problems if a carefully selected 
group of scientists work on it together for a summer.'' While progress 
has not proceeded as swiftly as the optimistic founders of the field 
may have expected, there have been ongoing advances over the decades 
from the sub-disciplines of AI, including machine vision, machine 
learning, natural language understanding, reasoning and planning, and 
robotics.
---------------------------------------------------------------------------
    \1\ McCarthy, J., Minsky, M.L., Rochester, N., Shannon, C.E. A 
Proposal for the Dartmouth Summer Project on Artificial Intelligence, 
Dartmouth University, May 1955.
---------------------------------------------------------------------------
    Highly visible AI achievements, such as DeepBlue's win over the 
world chess champion, have captured the imagination of the public. Such 
high-profile achievements have relayed a sense that the field is 
characterized by large jumps in capabilities. In reality, research and 
development (R&D) in the AI sub-disciplines have produced an ongoing 
stream of innovations. Numerous advances have become part of daily 
life, such as the widespread use of AI route-planning algorithms in 
navigation systems.\2\ Many applications of AI execute ``under the 
hood'', including methods that perform machine learning and planning to 
enhance the functioning of computer operating systems or to better 
retrieve and rank search results. In some cases, AI systems have 
introduced breakthrough efficiencies without public recognition or 
fanfare. For example, in the mid- to late-1990s leading-edge machine 
vision methods for handwriting recognition were pressed into service by 
the U.S. Postal Service to recognize and route handwritten addresses on 
letters automatically.\3\ High-speed variants of the first machines now 
sort through more than 25 billion letters per year, with estimated 
accrued savings of hundreds of millions of dollars.
---------------------------------------------------------------------------
    \2\ Hart, P.E., Nilsson, N.J., Raphael, B. A Formal Basis for the 
Heuristic Determination of Minimum Cost Paths. IEEE Transactions on 
Systems Science and Cybernetics Vol. SSC-4, No. 2, July 1968.
    \3\ Kim, G and Govindaraju, V., Handwritten Word Recognition for 
Real-Time Applications, Proceedings of the Third International 
Conference on Document Analysis and Recognition, August 1995.
---------------------------------------------------------------------------
AI at an Inflection Point
    Over the last decade, there has been a promising inflection in the 
rate of development and fielding of AI applications. The acceleration 
has been driven by a confluence of several factors. A key influence 
behind the inflection is the availability of unprecedented streams of 
data, coupled with drops in the cost of storing and retrieving that 
data. Large quantities of structured and unstructured databases about 
human activities and content have become available via the digitization 
and the shift to the web of activities around commerce, science, 
communications, governance, education, and art and entertainment.
    Other contributing factors include dramatic increases in available 
computing power, and jumps in the prowess of methods for performing 
machine learning and reasoning. There has been great activity in the 
machine learning area over the last thirty years with the development 
of a tapestry of algorithms for transforming data into components that 
can recognize patterns, perform diagnoses, and make predictions about 
future outcomes. The past thirty years of AI research also saw the rise 
and maturation of methods for representing and reasoning under 
uncertainty. Such methods jointly represent and manipulate both logical 
and probabilistic information. These methods draw from and extend 
methods that had been initially studied and refined in the fields of 
statistics, operations research, and decision science. Such methods for 
learning and reasoning under uncertainty have been critical for 
building and fielding AI systems that can grapple effectively with the 
inescapable incompleteness when immersed in real-world situations.
    Over the last decade, there has been a renaissance in the use of a 
family of methods for machine learning known as neural networks.\4\ A 
class of these algorithms referred to as deep neural networks are now 
being harnessed to significantly raise the quality and accuracy of such 
services as automatic speech recognition, face and object recognition 
from images and video, and natural language understanding. The methods 
are also being used to develop new computational capabilities for end 
users, such as real-time speech-to-speech translation among languages 
(e.g., now available in Microsoft's Skype) and computer vision for 
assisting drivers with the piloting of cars (now fielded in the Tesla's 
models S and X).
---------------------------------------------------------------------------
    \4\ Neural network algorithms are descendants of statistical 
learning procedures developed in the 1950s, referred to as perceptrons. 
With neural networks, representations of patterns seen in training data 
are stored in a set of layers of large numbers of interconnected 
variables, often referred to as ``neurons''. The methods are inspired 
loosely (and in a very high-level manner) by general findings about the 
layering of neurons in vertebrate brains. Seven years ago, a class of 
neural networks, referred to as deep neural networks, developed decades 
earlier, were shown to provide surprising accuracies for pattern 
recognition tasks when trained with sufficient quantities of data.
---------------------------------------------------------------------------
Key Opportunities
    AI applications explored to date frame opportunities ahead for 
leveraging current and forthcoming AI technologies. Pressing AI methods 
that are currently available into service could introduce new 
efficiencies into workflows and processes, help people with 
understanding and leveraging the explosion of data in scientific 
discovery and engineering, as well as assist people with solving a 
constellation of challenging real-world problems.\5\
---------------------------------------------------------------------------
    \5\ Multiple AI applications in support of people and society are 
presented here: E. Horvitz, AI in Support of People and Society, White 
House OSTP CCC AAAI meeting on AI and Social Good, Washington, D.C., 
June 2016. (access video presentation)
---------------------------------------------------------------------------
    Numerous commercial and societal opportunities can be addressed by 
using available data to build predictive models and then using the 
predictive models to help guide decisions. Such data to predictions to 
decisions pipelines can deliver great value and help build insights for 
a broad array of problems.\6\ Key opportunities include AI applications 
in healthcare and biomedicine, accessibility, transportation, 
education, manufacturing, agriculture, and for increasing the 
effectiveness and robustness of critical infrastructure such as our 
electrical power grid.
---------------------------------------------------------------------------
    \6\ E. Horvitz. From Data to Predictions and Decisions: Enabling 
Evidence-Based Healthcare, Data Analytic Series, Computing Community 
Consortium, Computing Research Association (CRA), September 2010.
---------------------------------------------------------------------------
    Healthcare and transportation serve as two compelling examples 
where AI methods can have significant influence in the short-and 
longer-term.
    Healthcare. AI can be viewed as a sleeping giant for healthcare. 
New efficiencies and quality of care can be obtained by leveraging a 
coupling of predictive models, decision analysis, and optimization 
efforts to support decisions and programs in healthcare. Applications 
span the handling of acute illnesses, longer-term disease management, 
and the promotion of health and preventative care. AI methods show 
promise for multiple roles in healthcare, including inferring and 
alerting about hidden risks of potential adverse outcomes, selectively 
guiding attention, care, and interventional programs where it is most 
needed, and reducing errors in hospitals.
    On-site machine learning and decision support hinging on inference 
with predictive models can be used to identify and address potentially 
costly outcomes. Let's consider the challenge of reducing readmission 
rates. A 2009 study of Medicare-reimbursed patients who were 
hospitalized in 2004 found that approximately 20 percent of these 
patients were re-hospitalized within 30 days of their discharge from 
hospitals and that 35 percent of the patients were re-hospitalized 
within 90 days.\7\ Beyond the implications of such readmissions for 
health, such re-hospitalizations were estimated to cost the Nation 
$17.4 billion in 2004. Studies have demonstrated that predictive 
models, learned from large-scale hospital datasets, can be used to 
identify patients who are at high risk of being re-hospitalized within 
a short time after they are discharged--and that such methods could be 
used to guide the allocation of special programs aimed at reducing 
readmission.\8\
---------------------------------------------------------------------------
    \7\ Coleman, E. Jencks, S., Williams, M. Rehospitalizations among 
Patient in the Medicare Fee-for-Service Program, The New England 
Journal of Medicine, 380:1418-1428, April 2009.
    \8\ Bayati, M., Braverman, M., Gillam, M. Mack, K.M., Ruiz, G., 
Smith, M.S., Horvitz, E. Data-Driven Decisions for Reducing 
Readmissions for Heart Failure: General Methodology and Case Study. 
PLOS One Medicine. October 2014.
---------------------------------------------------------------------------
    AI methods can also play a major role in reducing costs and 
enhancing the quality of care for the difficult and ongoing challenge 
of managing chronic disorders. For example, congestive heart failure 
(CHF) is prevalent and expensive. The illness affects nearly 10 percent 
of people over 65 years. Medical costs and hospitalizations for CHF are 
estimated to be $35 billion per year in the U.S. CHF patients may hover 
at the edge of physiological stability and numerous factors can cause 
patients to spiral down requiring immediate hospitalization. AI methods 
trained with data can be useful to predict in advance potential 
challenges ahead and to allocate resources to patient education, 
sensing, and to proactive interventions that keep patients out of the 
hospital.
    Machine learning, reasoning, and planning offer great promise for 
addressing the difficult challenge of keeping hospitals safe and 
efficient. One example is addressing the challenge with hospital-
associated infections.\9\ It is estimated that such infections affect 
10 percent of people who are hospitalized and that they are a 
substantial contributor to death in the U.S. Hospital-associated 
infections have been linked to significant increases in hospitalization 
time and additional costs of tens of thousands of dollars per patient, 
and to nearly $7 billion of additional costs annually in the U.S. The 
CDC has been estimated that 90 percent of deaths due to hospital-
associated infections can be prevented. A key direction is the 
application of predictive models and decision analyses to estimate 
patients' risk of illness and to guide surveillance and other 
preventative actions.
---------------------------------------------------------------------------
    \9\ Wiens, J., Guttag, J., and Horvitz, E., Patient Risk 
Stratification with Time-Varying Parameters: A Multitask Learning 
Approach. Journal of Machine Learning Research (JMLR), April 2016.
---------------------------------------------------------------------------
    AI methods promise to complement the skills of physicians and 
create new forms of cognitive ``safety nets'' to ensure the effective 
care of hospitalized patients.\10\ An Institute of Medicine (IOM) study 
in 2000 called attention to the problem of preventable errors in 
hospitals.\11\ The study found that nearly 100,000 patients die in 
hospitals because of preventable human errors. The IOM estimate has 
been revised upward by several more recent studies. Studies in October 
2013 and in May 2016 estimated that preventable errors in hospitals are 
the third leading cause of death in the U.S., only trailing behind 
heart disease and cancer. The two studies estimated deaths based in 
preventable error as exceeding 400,000 and 250,000 patients per year, 
respectively.\12\<SUP>,</SUP>\13\ AI systems for catching errors via 
reminding and recognizing anomalies in best clinical practices could 
put a significant dent in the loss of nearly 1,000 citizens per day, 
and could save tens of thousands of patients per year.
---------------------------------------------------------------------------
    \10\ Hauskrecht, M., Batal, I., Valko, M., Visweswaran, S., Cooper, 
G.F., Clermont, G., Outlier Detection for Patient Monitoring and 
Alerting, Journal of Biomedical Informatics, Volume 46, Issue 1, 
February 2013, Pages 47-55.
    \11\ To Err Is Human: Building a Safer Health System, Institute of 
Medicine: Shaping the Future, November 1999.
    \12\ James, John T. A New, Evidence-based Estimate of Patient Harms 
Associated with Hospital Care, Journal of Patient Safety, September 
2013.
    \13\ Daniel, M., Makary, M. Medical Error--The Third Leading Cause 
of Death in the U.S., BMJ, 353, 2016.
---------------------------------------------------------------------------
    The broad opportunities with the complementarity of AI systems and 
physicians could be employed in myriad ways in healthcare. For example, 
recent work in robotic surgery has explored how a robotic surgeon's 
assistant can work hand-in-hand to collaborate on complex surgical 
tasks. Other work has demonstrated how coupling machine vision for 
reviewing histological slides with human pathologists can significantly 
increase the accuracy of detecting cancer metastases.
    Transportation. AI methods have been used widely in online services 
and applications for helping people with predictions about traffic 
flows with doing traffic-sensitive routing. Moving forward, AI methods 
can be harnessed in multiple ways to make driving safer and to expand 
the effective capacity of our existing roadway infrastructure. 
Automated cars enabled by advances in perception and robotics promise 
to enhance both flows on roads and to enhance safety. Longer-range 
possibilities include the fielding of large-scale automated public 
microtransit solutions on a citywide basis. Such solutions could 
transform mobility within cities and could influence the overall 
structure and layout of cities over the longer-term.
    Smart, automated driver alerting and assistance systems for 
collision avoidance show promise for saving hundreds of thousands of 
lives worldwide. Motor vehicle accidents are believed to be responsible 
for 1.2 million deaths and 20-50 million non-fatal injuries per year 
each year. NHTSA's Fatality Analysis Reporting System (FARS) shows that 
deaths in the U.S. due to motor vehicle injuries have been hovering at 
rates over 30,000 fatalities per year. In addition to deaths, it is 
important to include a consideration of the severe injuries linked to 
transportation. It is estimated that 300,000 to 400,000 people suffer 
incapacitating injuries every year in motor vehicles; in addition to 
the nearly 100 deaths per day, nearly one thousand Americans are being 
incapacitated by motor vehicle injuries every day.
    Core errors based in the distraction of drivers and problems with 
control lead to road departures and read-end collisions. These expected 
problems with human drivers could be addressed with machine perception, 
smart alerting, and autonomous and semi-autonomous controls and 
compensation. AI methods that deliver inferences with low false-
positive and false-negative rates for guiding braking and control could 
be pressed into service to save many thousands of lives and to avoid 
hundreds of thousands of life-changing injuries. Studies have found 
that a great proportion of motor vehicle accidents are caused by 
distraction and that nearly 20 percent of automobile accidents are 
believed to be failures to stop. Researchers have estimated that the 
use of smart warning, assisted braking, and autonomous braking systems 
could reduce serious injuries associated with rear-end collisions by 
nearly 50 percent.\14\
---------------------------------------------------------------------------
    \14\ Kusano, K.D. and Gabler, H.C., Safety Benefits of Forward 
Collision Warning, Brake Assist, and Autonomous Braking Systems in 
Rear-End Collisions, IEEE Transactions on Intelligent Transportation 
Systems, pages 1546-1555. Volume: 13(4), December 2012.
---------------------------------------------------------------------------
    Myriad of opportunities. Healthcare and transportation are only two 
of the many sectors where AI technologies offer exciting advances. For 
example, machine learning, planning, and decision making can be 
harnessed to understand, strengthen, monitor, and extend such critical 
infrastructure such as our electrical power grid, roads, and bridges. 
In this realm, AI advances could help to address challenges and 
directions specified in the Energy Independence and Security Act of 
2007 on the efficiency, resilience, and security of the U.S. power 
grid. In particular, there is opportunity to harness predictive models 
for predicting the load and availability of electrical power over time. 
Such predictions can lead to more effective plans for power 
distribution. Probabilistic troubleshooting methodologies can jointly 
harness knowledge of physical models and streams of data to develop 
models that could serve in proactive and real-time diagnoses of 
bottlenecks and failures, with a goal of performing interventions that 
minimize disruptions.
    In another critical sector, AI methods can play an important role 
in the vitality and effectiveness of education and in continuing-
education programs that we offer to citizens. As an example, data-
centric analyses have been employed to develop predictive models for 
student engagement, comprehension, and frustration. Such models can be 
used in planners that create and update personalized education 
strategies.\15\<SUP>,</SUP>\16\ Such plans could address conceptual 
bottlenecks and work to motivate and enhance learning. Automated 
systems could help teachers triage and troubleshoot rising challenges 
with motivation/engagement and help design ideal mixes of online and 
human-touch pedagogy.
---------------------------------------------------------------------------
    \15\ K. Koedinger, S. D'Mello., E. McLauglin, Z. Pardos, C. Rose. 
Data Mining and Education, Wiley Interdisciplinary Reviews: Cognitive 
Science, 6(4): 333-353, July 2015.
    \16\ Rollinson, J. and Brunskill, E., From Predictive Models to 
Instructional Policies, International Educational Data Mining Society, 
International Conference on Educational Data Mining (EDM) Madrid, 
Spain, June 26-29, 2015.
---------------------------------------------------------------------------
Key Research Directions
    R&D on AI continues to be exciting and fruitful with many 
directions and possibilities. Several important research directions 
include the following:

    Supporting Human-AI collaboration. There is great promise for 
developing AI systems that complement and extend human abilities \17\. 
Such work includes developing AI systems that are human-aware and that 
can understand and augment human cognition. Research in this realm 
includes the development of systems that can recognize and understand 
the problems that people seek to solve, understanding human plans and 
intentions, and to recognize and address the cognitive blind spots and 
biases of people.\18\ The latter opportunity can leverage rich results 
uncovered in over a century of work in cognitive psychology.
---------------------------------------------------------------------------
    \17\ Licklider, J. C. R., ``Man-Computer Symbiosis'', IRE 
Transactions on Human Factors in Electronics, vol. HFE-1, 4-11, March 
1960.
    \18\ Presentation: Horvitz, E., Connections, Sustained Achievement 
Award Lecture, ACM International Conference on Multimodal Interaction 
(ICMI), Seattle, WA, November 2015.
---------------------------------------------------------------------------
    Research on human-AI collaboration also includes efforts on the 
coordination of a mix of initiatives by people and AI systems in 
solving problems. In such mixed-initiative systems, machines and people 
take turns at making contributions to solving a 
problem.\19\<SUP>,</SUP>\20\ Advances in this realm can lead to methods 
that support humans and machines working together in a seamless, fluid 
manner.
---------------------------------------------------------------------------
    \19\ E. Horvitz. Principles of Mixed-Initiative User Interfaces. 
Proceedings of CHI '99, ACM SIGCHI Conference on Human Factors in 
Computing Systems, Pittsburgh, PA, May 1999.
    \20\ E. Horvitz. Reflections on Challenges and Promises of Mixed-
Initiative Interaction, AAAI Magazine 28, Special Issue on Mixed-
Initiative Assistants (2007).
---------------------------------------------------------------------------
    Recent results have demonstrated that AI systems can learn about 
and extend peoples' abilities.\21\ Research includes studies and 
methods that endow systems with an understanding about such important 
subtleties as the cost of an AI system interrupting people in different 
contexts with potentially valuable information or other contribution 
\22\ and on predicting information that people will forget something 
that they need to remember in the context at hand.\23\
---------------------------------------------------------------------------
    \21\ E. Kamar, S. Hacker, E. Horvitz. Combining Human and Machine 
Intelligence in Large-scale Crowdsourcing, AAMAS 2012, Valencia, Spain, 
June 2012.
    \22\ E. Horvitz and J. Apacible. Learning and Reasoning about 
Interruption. Proceedings of the Fifth ACM International Conference on 
Multimodal Interfaces, November 2003, Vancouver, BC, Canada.
    \23\ E. Kamar and E. Horvitz, Jogger: Investigation of Principles 
of Context-Sensitive Reminding, Proceedings of International Conference 
on Autonomous Agents and Multiagent Systems (AAMAS 2011), Tapei, May 
2011.
---------------------------------------------------------------------------
    Causal discovery. Much of machine learning has focused on learning 
associations rather than causality. Causal knowledge is a critical 
aspect of scientific discovery and engineering. A longstanding 
challenge in the AI sub-discipline of machine learning has been 
identifying causality in an automated manner. There has been progress 
in this realm over the last twenty years. However, there is much to be 
done on developing tools to help scientists find rich causal models 
from large-scale sets of data.\24\
---------------------------------------------------------------------------
    \24\ See efforts at the NIH BD2K Center for Causal Discovery: 
http://www.ccd.pitt.edu/about/
---------------------------------------------------------------------------
    Unsupervised learning. Most machine learning is referred to as 
supervised learning. With supervised learning, data is directly or 
indirectly tagged by people who provide a learning system with specific 
labels, such as the goals or intentions of people, or health outcomes. 
There is deep interest and opportunity ahead with developing 
unsupervised learning methods that can learn without human-authored 
labels. We are all familiar with the apparent power that toddlers have 
with learning about the world without obvious detailed tagging or 
labeling. There is hope that we may one day better understand these 
kinds of abilities with the goal of harnessing them in our computing 
systems to learn more efficiently and with less reliance on people.
    Learning physical actions in the open world. Research efforts have 
been underway on the challenges of enabling systems to do active 
exploration in simulated and real worlds that are aimed at endowing the 
systems with the ability to make predictions and to perform physical 
actions successfully. Such work typically involves the creation of 
training methodologies that enable a system to explore on its own, to 
perform multiple trials at tasks, and to learn from these experiences. 
Some of this work leverages methods in AI called reinforcement 
learning, where learning occurs via sets of experiences about the best 
actions or sequences of actions to take in different settings. Efforts 
to date include automatically training systems to recognize objects and 
to learn the best ways to grasp objects.\25\
---------------------------------------------------------------------------
    \25\ J. Oberlin, S. Tellex. Learning to Pick Up Objects Through 
Active Exploration, IEEE, August 2015.
---------------------------------------------------------------------------
    Integrative intelligence. Many R&D efforts have focused on 
developing specific competencies in intelligence, such as systems 
capable of recognizing objects in images, understanding natural 
language, recognizing speech, and providing decision support in 
specific healthcare areas to assist pathologists with challenges in 
histopathology. There is a great opportunity to weave together multiple 
competencies such as vision and natural language to create new 
capabilities. For example, natural language and vision have been 
brought together in systems that can perform automated image 
captioning.\26\<SUP>,</SUP>\27\ Other examples of integrative 
intelligence involve bringing together speech recognition, natural 
language understanding, vision, and sets of predictive models to 
support such challenges as constructing a supportive automated 
administrative assistant.\28\ There is much opportunity ahead in 
efforts in integrative intelligence that seek to weave together 
multiple AI competencies into greater wholes that can perform rich 
tasks.
---------------------------------------------------------------------------
    \26\ H. Fang, S. Gupta, F. Iandola, R. Srivastava, L. Deng, P. 
Dollar, J. Gao, X. He, M. Mitchell, J. Platt, C. Zitnick, G. Zweig, 
From Captions to Visual Concepts and Back, CVPR 2015.
    \27\ Vinyals, O., Toshev, A., Bengio S. Dumitru, E., Show and Tell: 
A Neural Image Caption Generator, CVPR 2015.
    \28\ D. Bohus and E. Horvitz. Dialog in the Open World: Platform 
and Applications, ICMI-MLMI 2009: International Conference on 
Multimodal Interaction, Cambridge, MA. November, 2009.
---------------------------------------------------------------------------
    Advances in platform and systems. Specific needs for advances with 
data-center scale systems and innovative hardware have come to the fore 
to support the training and execution of large-scale neural network 
models. New research at the intersection of learning and reasoning 
algorithms, computing hardware, and systems software will likely be 
beneficial in supporting AI innovations. Such research is being fielded 
in platforms that are becoming available from large companies in the 
technology sector.
    Development tools and ``democratization of AI''. New types of 
development tools and platforms can greatly assist with development, 
debugging, and fielding of AI applications. R&D is ongoing at large IT 
companies on providing developers with cloud-based programmatic 
interfaces (e.g., Microsoft's Cognitive Services) and client-based 
components for performing valuable inference tasks (e.g., detect 
emotion in images). Also, learning toolkits are being developed that 
enable researchers and engineers to do machine learning investigations 
and to field classifiers (e.g., Microsoft's CNTK and Google's 
TensorFlow). Other development environments are being developed for 
creating integrative AI solutions that can be used by engineers to 
assemble systems that rely on the integration of multiple competencies 
(natural language understanding, speech recognition, vision, reasoning 
about intentions of people, etc.) that must work together in a tightly 
coordinated manner in real-time applications.
Challenges
    Economics and jobs. Over the last several years, the AI 
competencies with seeing, hearing, and understanding language have 
grown significantly. These growing abilities will lead to the fielding 
of more sophisticated applications that can address tasks that people 
have traditionally performed. Thus, AI systems will likely have 
significant influences on jobs and the economy. Few dispute the 
assertion that AI advances will increase production efficiencies and 
create new wealth. McKinsey & Company has estimated that advanced 
digital capabilities could add 2.2 trillion U.S. dollars to the U.S. 
GDP by 2025. There are rising questions about how the fruits of AI 
productivity will distributed and on the influence of AI on jobs. 
Increases in the competencies of AI systems in both the cognitive and 
physical realms will have influences on the distribution, availability, 
attraction, and salaries associated with different jobs. We need to 
focus attention on reflection, planning, and monitoring to address the 
potential disruptive influences of AI on jobs in the U.S.--and to work 
to understand the broad implications of new forms of automation 
provided by AI for domestic and international economics. Important 
directions for study include seeking an understanding of the needs and 
value of education and the geographic distribution of rising and 
falling job opportunities.
    There is an urgent need for training and re-training of the U.S. 
workforce so as to be ready for expected shifts in workforce needs and 
in the shifts in distributions of jobs that are fulfilling and 
rewarding to workers. In an economy increasingly driven by advances in 
digital technology, increasing numbers of jobs are requiring a degree 
in one of the STEM (science, technology, engineering, and math) fields. 
There is growing demand for people with training in computer science, 
with estimates suggesting that by 2024, the number of computer and 
information analyst jobs will increase by almost 20 percent. For 
companies to thrive in the digital, cloud-driven economy, the skills of 
employees must keep pace with advances in technology. It has been 
estimated as many as 2 million jobs could go unfilled in the U.S. 
manufacturing sector during the next decade because of a shortage of 
people with the right technical skills.\29\ Investing in education can 
help to prepare and adapt our workforce to what we expect will be a 
continuing shift in the distribution of jobs, and for the changing 
demands on human labor.
---------------------------------------------------------------------------
    \29\ The Manufacturing Institute and Deloitte, ``The skills gap in 
U.S. manufacturing: 2015 and beyond.'', 2015.
---------------------------------------------------------------------------
    Beyond ensuring that people are trained to take on fulfilling, 
well-paid positions, providing STEM education and training to larger 
number of citizens will be critical for U.S. competitiveness. We are 
already facing deficits in our workforce: The Bureau of Labor 
Statistics estimates that there are currently over 5 million unfilled 
positions in the U.S. Many of those jobs are those created due to new 
technologies. This suggests that there are tremendous opportunities for 
people with the right skills to help U.S. companies to create products 
and services that can, in turn, drive additional job creation and 
create further economic growth.
    Shortages of people who have training in sets of skills that are 
becoming increasingly relevant and important could pose serious 
competitive issues for companies and such shortages threaten the long-
term economic health of the U.S. Without addressing the gap in skills, 
we'll likely see a widening of the income gap between those who have 
the skills to succeed in the 21st century and those who do not. Failing 
to address this gap will leave many people facing an uncertain future--
particularly women, young people, and those in rural and underserved 
communities. Working to close this divide will be an important step to 
addressing income inequality and is one of the most important actions 
we can take.
    Safety and robustness in the open world. Efforts to employ AI 
systems in high-stakes, safety critical applications will become more 
common with the rising competency of AI technologies.\30\ Such 
applications include automated and semi-automated cars and trucks, 
surgical assistants, automation of commercial air transport, and 
military operations and weapon systems, including uses in defensive and 
offensive systems. Work is underway on ensuring that systems in safety 
critical areas perform robustly and in accordance with human 
preferences. Efforts on safety and robustness will require careful, 
methodical studies that address the multiple ways that learning and 
reasoning systems may perform costly, unintended actions.\31\ Costly 
outcomes can result from erroneous behaviors stemming from attacks on 
one or more components of AI systems by malevolent actors. Other 
concerns involve problems associated with actions that are not 
considered by the system. Fears have also been expressed that smart 
systems might be able to make modifications and to shift their own 
operating parameters and machinery. These classes of concern frame 
directions for R&D.
---------------------------------------------------------------------------
    \30\ T.G. Dietterich and E.J. Horvitz, Rise of Concerns about AI: 
Reflections and Directions. Communications of the ACM, Vol. 58 No. 10, 
pages 38-40, October 2015.
    \31\ Amodei, D., Olah, C., Steinhardt, J., Christiano, P., 
Schulman, J., Mane, D., Concrete Problems in AI Safety, arXiv, 25 July 
2016.
---------------------------------------------------------------------------
    Efforts and directions on safety and robustness include the use of 
techniques in computer science referred to as verification that prove 
constraints on behaviors, based on offline analyses or on real-time 
monitoring. Other methods leverage and extend results developed in the 
realm of adaptive control, on robust monitoring and control of complex 
systems. Control-theoretic methods can be extended with models of 
sensor error and with machine learning about the environment to provide 
guarantees of safe operation, given that assumptions and learnings 
about the world hold.\32\ Such methods can provide assurance of safe 
operation at a specified tolerated probability of failure. There are 
also opportunities for enhancing the robustness of AI systems by 
leveraging principles of failsafe design developed in other areas of 
engineering.\33\ Research is also underway on methods for building 
systems that are robust to incompleteness in their models, and that can 
respond appropriately to unknown unknowns faced in the open world.\34\ 
Beyond research, best practices may be needed on effective testing, 
structuring of trials, and reporting when fielding new technologies in 
the open world.
---------------------------------------------------------------------------
    \32\ D. Sadigh, A. Kapoor, Safe Control Under Uncertainty with 
Probabiliistic Signal Temporal Logic, Robotics: Science and Systems, 
RSS 2016.
    \33\ Overview presentation on safety and control of AI can be found 
here: E. Horvitz, Reflections on Safety and Artificial Intelligence, 
White House OSTP-CMU Meeting on Safety and Control of AI, June 2016. 
(view video presentation).
    \34\ One challenge that must be considered when fielding 
applications for safety critical tasks is with transfer of applications 
from the closed world of test scenarios to the open world of fielded 
technologies. Systems developed in the laboratory or in test facilities 
can be surprised by unexpected situations in the open world--a world 
that contains unmodeled situations, including sets of unknown unknowns 
stemming from incompleteness in a system's perceptions and 
understandings. Addressing incompleteness and unknown unknowns is an 
interesting AI research challenge.
---------------------------------------------------------------------------
    A related, important area for R&D on safety critical AI 
applications centers on the unique challenges that can arise in systems 
that are jointly controlled by people and machines. Opportunities 
include developing systems that explicitly consider human attention and 
intentions, that provide people with explanations of machine inferences 
and actions, and that work to ensure that people comprehend the state 
of problem solving--especially as control is passed between machines 
and human decision making. There is an opportunity to develop and share 
best practices on how systems signal and communicate with humans in 
settings of shared responsibility.
    Ethics of autonomous decisions. Systems that make autonomous 
decisions in the world may have to make trades and deliberate about the 
costs and benefits of rich, multidimensional outcomes--under 
uncertainty. For example, it is feasible that an automated driving 
system may have to reason about actions that differentially influence 
the likelihood that passengers versus pedestrians are injured. As 
systems become more competent and are granted greater autonomy in 
different areas, it is important that the values that guide their 
decisions are aligned with the values of people and with greater 
society. Research is underway on the representation, learning, 
transparency, and specification of values and tradeoffs in autonomous 
and semi-autonomous systems.
    Fairness, bias, transparency. There is a growing community of 
researchers with interest in identifying and addressing potential 
problems with fairness and bias in AI systems.\35\ Datasets and the 
classifications or predictions made by systems constructed from the 
data can be biased. Implicit biases in data and in systems can arise 
because of unmodeled or poorly understood limitations or constraints on 
the process of collection of data, the shifting of the validity of data 
as it ages, and using systems for inferences and decisions for 
populations or situations that differ greatly from the populations and 
situations that provided the training data As an example, predictive 
models have been used to assist with decision making in the realm of 
criminal justice. Models trained on datasets have been used to assist 
judges with decisions about bail and about the release of people 
charged with crimes in advance of their court dates. Such decisions can 
enhance the lives of people and reduce costs. However, great caution 
must be used with ensuring that datasets do not encode and amplify 
potential systematic biases in the way the data is defined and 
collected. Research on fairness, biases, and accountability and the 
performance of machine-learned models for different constituencies is 
critically important. The importance of this area will only grow in 
importance as AI methods are used with increasing frequency to advise 
decision makers about the best actions in high-stakes settings. Such 
work may lead to best practices on the collection, usage, and the 
sharing of datasets for testing, inspection, and experimentation. 
Transparency and openness may be especially important in applications 
in governance.
---------------------------------------------------------------------------
    \35\ See Fairness, Accountability, and Transparency in Machine 
Learning (FATML) conference site: http://www.fatml.org/
---------------------------------------------------------------------------
    Manipulation. It is feasible that methods employing machine 
learning, planning, and optimization could be used to create systems 
that work to influence peoples' beliefs and behavior. Further, such 
systems could be designed to operate in manner that is undetectable by 
those being influenced. More work needs to be done to study, detect, 
and monitor such activity.
    Privacy. With the rise of the centrality of data-centric analyses 
and predictive models come concerns about privacy. We need to consider 
the potential invasion in the privacy of individuals based on 
inferences that can be made from seemingly innocuous data. Other 
efforts on privacy include methods that allow data to be used for 
machine learning and reasoning yet maintains the privacy of 
individuals. Approaches include methods for anonymizing data via 
injecting noise \36\, sharing only certain kinds of summarizing 
statistics, providing people with controls that enable them to trade 
off the sharing of data for enhanced personalization of services \37\, 
and using different forms of encryption. There is much work to be done 
on providing controls and awareness to people about the data being 
shared and how it is being used to enhance services for themselves and 
for larger communities.
---------------------------------------------------------------------------
    \36\ Differential privacy ref: Dwork, C.: Differential Privacy. In: 
Proceedings of the 33rd International Colloquium on Automata, Languages 
and Programming (ICALP) (2), pp. 1-12 (2006).
    \37\ A. Krause and E. Horvitz. A Utility-theoretic Approach to 
Privacy in Online Services, Journal of Artificial Intelligence 
Research, 39 (2010) 633-662.
---------------------------------------------------------------------------
    Cybersecurity. New kinds of automation can present new kinds of 
``attack surfaces'' that provide opportunities for manipulation and 
disruption by cyberattacks by state and non-state actors. As mentioned 
above, it is critical to do extensive analyses of the new attack 
surfaces and the associated vulnerabilities that come with new 
applications of AI. New classes of attack are also feasible, including 
``machine learning attacks,'' involving the injection of erroneous or 
biased training data into datasets. Important directions include 
hardware and software-based security and encryption, new forms of 
health monitoring, and reliance on principles of failsafe design.
Recommendations
    We recommend the following to catalyze innovation among our basic 
and applied AI communities across government, academia, industry, and 
non-profit sectors:

  <bullet> Public-sector research investments are vital for catalyzing 
        innovation on AI principles, applications, and tools. Such 
        funding can leverage opportunities for collaborating and 
        coordinating with industry and other sectors to help facilitate 
        innovation.

  <bullet> Research investments are needed at the intersection of AI, 
        law, policy, psychology, and ethics to better understand and 
        monitor the social and societal consequences of AI.

  <bullet> Governments should create frameworks that enable citizens 
        and researchers to have easy access to government curated 
        datasets where appropriate, taking into consideration privacy 
        and security concerns.

  <bullet> With the goal of developing guidelines and best practices, 
        governments, industry, and civil society should work together 
        to weigh the range of ethical questions and issues that AI 
        applications raise in different sectors. As experience with AI 
        broadens, it may make sense to establish more formal industry 
        standards that reflect consensus about ethical issues but that 
        do not impede innovation and progress with AI and its 
        application in support of people and society.

  <bullet> In an era of increasing data collection and use, privacy 
        protection is more important than ever. To foster advances in 
        AI that benefit society, policy frameworks must protect privacy 
        without limiting innovation. For example, governments should 
        encourage the exploration and development of techniques that 
        enable analysis of large datasets without revealing individual 
        identities.

  <bullet> We need to invest in training that prepares people for high-
        demand STEM jobs. Governments should also invest in high-
        quality worker retraining programs for basic skills and for 
        certifications and ongoing education for those already in the 
        workforce. A first step is to identify the skills that are most 
        in demand. Governments can develop and deliver high-quality 
        workforce retraining programs or provide incentives and 
        financial resources for private and nonprofit organizations to 
        do so.

    Thank you for the opportunity to testify. I look forward to 
answering your questions.

    Senator Cruz. Thank you, Dr. Horvitz.
    Dr. Moore.

  STATEMENT OF DR. ANDREW W. MOORE, DEAN, SCHOOL OF COMPUTER 
              SCIENCE, CARNEGIE MELLON UNIVERSITY

    Dr. Moore. Thank you, Chairman Cruz, Ranking Member Peters, 
and members of the Subcommittee, for convening this really 
important meeting.
    What I want to do with this testimony is to offer three 
takeaways. First, what AI is and what it isn't right now. The 
``artificial'' in artificial intelligence is there for a 
reason. Second, I will explain why things are changing so 
quickly right now. And third, I want to talk about the thing 
that keeps me awake at night regarding U.S. competitiveness in 
AI.
    So, what is AI? When one of my students decides to build an 
AI, they always end up doing two things. One, they make sure 
the computer can perceive and understand the world through 
computer vision and through big data. Second, they do massive 
search, which means, in all these examples we've talked about, 
such as a car finding a route, the computer searches to find 
the best of billions, and sometimes quintillions, of 
possibilities, and does that very quickly and efficiently. And 
that's happening all the time. When you ask Siri a question, 
what's happening up there in the cloud is, it is essentially 
trying out about 10 billion possible answers to your question 
and searching over them to score each one as to how likely it 
is to make you satisfied. If an autonomous car is about to hit 
a deer, and it's about .2 of a second to impact, it can spend 
the first 20th of a second gaming out millions of possibilities 
of what it can do, what the deer is going to do, to maximize 
the chance that people are going to survive. So, that's what's 
going on in AI. It is perception through big data and search.
    What has really changed in the last couple of years is, 
through the efforts of the United States in big data, we now 
have computers which can perceive enough of this to be useful. 
And this means that there's now a big land grab going on for 
researchers and entrepreneurs and students for finding all the 
places where we can use this. For example, this picture here is 
of Sebastien LePage, who is V.P. of Operations at Kinova, a 
robotics arm company, working with Carnegie Mellon faculty on 
the question of, if you are unable to use anything below your 
neck, but you want to indicate by nodding at something that 
you'd like to pick it up, perhaps nod again to say you want to 
bring it to your mouth, searching over the billions of possible 
things the arm can do safely to find the one which is most 
likely to make you, as the user, happy. This is an 
unambiguously good use of technology applicable to tens of 
thousands of our veterans, for example.
    But, what excites me, and the reason I'm in this business 
right now, is that there are thousands of stories like this 
happening, and my students and faculty and folks all across the 
country who have the skills are exploring the ways of doing 
this.
    For example, one of our undergraduate students, working by 
herself using open AI tools, managed to quickly come up with a 
system for checking open Internet records to detect sex 
traffickers. And her algorithm has saved, you know, a couple of 
hundred young women from sex trafficking. That's one person who 
had the skills able to do this.
    Another example, this wasn't possible 12 months ago. Now we 
have drones zooming quickly through forests, able to dodge 
trees as they're going, because they can now afford to plan so 
fast to avoid trees in sub-second time. Many other examples, so 
many that I could keep us going for half an hour. They all just 
make me so excited.
    But, the thing that keeps me awake at night on all of this 
is the talent war. I really, really beseech that, together, we 
can get a million of the current middle-school students in the 
country to become AI experts over the next 5 to 10 years. At 
the moment, we have a tiny fraction--I would say less than 1 
percent--of the people available to work in this area who could 
work in this area. If you duplicated these four panel members a 
hundred times each, we still would have too much to do when it 
comes to taking advantage of all these opportunities.
    I estimate that, when an Internet company hires one of our 
students, they're making 5 to 10 million dollars per student 
just by having that person on their payroll. And so, the 
bidding wars for these talents are huge. And our students, 
instead of necessarily moving to work on AI for the Veterans 
Administration or AI for helping protect our warfighter, the 
majority of them are simply going off to Internet companies, 
which is fine, but I want them in all the other sectors of our 
economy, as well.
    Similarly, if you look at every one of the big advances in 
artificial intelligence that are now active, they came from 
university professors--the majority of them from U.S. 
university professors. We are beginning to lose many of our 
university professors to industry, and that is damaging our 
seed corn. Our university professors who are AI experts are 
looking for sustained, stable funding, not necessarily lots of 
funding, so that they can realize their dreams of doing things 
like this.
    So, I'm very excited. I'm very grateful for this 
subcommittee for shining a light on this important issue. I 
think the future is bright, but it really is an AI race at the 
moment.
    [The prepared statement of Dr. Moore follows:]

  Prepared Statement of Dr. Andrew W. Moore, Dean, School of Computer 
                  Science, Carnegie Mellon University
    Thank you Chairman Cruz, Ranking Member Peters, and Members of the 
Subcommittee for convening this important hearing on Artificial 
Intelligence (AI). I am honored to be here and to be joined by 
colleagues who are advancing the science, technology, business models, 
critical applications, and policy considerations of AI in the service 
of the United States and humanity.
    My name is Andrew Moore. I am the Dean of the School of Computer 
Science at Carnegie Mellon University and former Vice President at 
Google responsible for Machine Learning technology. I appreciate your 
leadership in focusing on the future of science, innovation, and 
American competitiveness and on the role that AI can play. The policies 
and strategies we adopt over the next several years will determine if 
the United States wins the race to lead this technological revolution 
as well as the resulting benefits for our citizens.
Introduction: Perspectives on the Future of AI from a Journey in 
        Computer Science
    Building upon fifty years of research, strategic Federal 
investments, dramatic advances in machine learning, and the explosion 
in available digital data, we no longer describe AI as a technology 
from the future: it is around us in our phones, our vehicles and in 
defense of our borders. AI tools are already making doctors better at 
diagnosing diseases and ensuring patients obtain the latest effective 
treatments.
    AI-empowered personalized learning will enable teachers to better 
reach and engage every student. Powerful new AI cyber tools will 
provide a new and more definitive defense against a world increasingly 
populated by hackers intent on criminal or state-sponsored attacks on 
American institutions, businesses and citizens. Adaptive, learning 
robotic systems will enable small manufacturers to cost-effectively 
change product lines more rapidly--even realizing mass production 
economies from ``quantity one'' to compete with foreign firms utilizing 
cheap labor. The ability to combine autonomous vehicles with public 
transit will unlock urban congestion, transform land use, enhance 
safety, and enable cities to focus on the most critical human elements 
of mobility. And, the potential applications of AI as powerful tools in 
national defense and homeland security will make us safer, even in the 
face of growing threats. In each of these areas, powerful opportunities 
exist to eradicate the barriers of distance, economic isolation, and 
limited economic opportunities, as well as making us a smarter, more 
productive, healthier, safer nation.
    Some economists assert that increased deployment of AI could 
represent a powerful economic stimulus for the nation--perhaps adding 
as much as 2 points to annual GDP growth by 2035.\1\ There are also 
economists who warn that the advance of AI applications could 
exacerbate income inequality and threaten a wide number of middle 
income jobs.\2\
    I am not an economist by training. I bring to this hearing 
perspectives shaped by my journey over three decades as a computer 
scientist and a technology business leader. As a university researcher 
I had the opportunity to develop machine learning capabilities that 
enable emergency room physicians to better predict the illnesses and 
patient levels they are likely to confront as weather and virus 
outbreak patterns evolve. This experience provided a window on how 
powerful AI applications can be to improve the delivery of vital 
services to those in need.
    At Google I helped develop advanced machine learning platforms to 
more effectively connect consumers to information by making search 
engine algorithms smarter and more powerful. That experience also 
taught me how AI tools can democratize access to information and 
unleash the energy of entrepreneurs to capitalize on the power of these 
platforms to bring products to consumers in a way that would have never 
been possible before.
    For example, enabling consumers to see the 200,000 new dresses that 
are produced each day in the world helps to unleash the creativity and 
entrepreneurship of dress makers and fashion designers in an 
unprecedented way, whether they are large companies or a small startup, 
in a major city or a rural community.
    But, as this Committee knows well, we face far broader and more 
daunting and important challenges as a nation than matching consumers 
with dresses.
    Now, as Dean of the #1 Computer Science School in the U.S., I have 
the wonderful opportunity to engage with a new generation of students--
and their faculty mentors--who are drawn to computer science because 
they want to focus their careers on applying AI to tackle our biggest 
societal challenges. They arrive at this with the clear eyed 
recognition that, as has been true with all new innovation, they must 
also address the potential negative impacts these technologies may 
bring. These experiences make me very optimistic that we can harness 
the power of AI to grow our economy and improve our quality of life 
while also acting definitively to mitigate any potential disruptions 
this new technology, like any new technology, can bring. New technology 
will always come. We must contribute to its use for good.
    My journey as a computer scientist leaves me certain that AI can 
create fundamentally new economic opportunities and be a powerful 
resource for addressing our most pressing challenges in areas of 
security, health care, better food production, and a new era of growth 
in manufacturing. At the same time, it can fundamentally transform the 
nature of work, as well as create new challenges in areas such as 
privacy. The key is a focused national strategy to nurture and attract 
the best talent, including applying new AI learning tools to aid 
workers in need of retraining; to enhance discovery and 
commercialization; and to create a business and regulatory environment 
that rewards innovation.
Carnegie Mellon and the AI Revolution
    My perspective has been heavily shaped by the culture of discovery 
at the School of Computer Science at Carnegie Mellon. The development 
of Artificial Intelligence was launched 60 years ago at a seminal 
gathering at Dartmouth University in the summer of 1956. Two of the 
four scientists who led that session, Allen Newell and Herbert Simon, 
were CMU faculty and had already created the first AI program. Since 
that time, with strong support from Federal research agencies, our 
faculty have pursued disruptive innovations that have help fuel the 
development of AI. These innovations include multithreaded computing, 
speech and natural language understanding, computer vision, software 
engineering methodology, self-driving robotic platforms, distributed 
file systems and more.
    Today well over 100 faculty and 1,000 students at Carnegie Mellon 
are engaged in AI-related research and education. In addition to 
advancing breakthroughs fundamental to the building blocks of AI 
systems, Carnegie Mellon faculty and student researchers have applied 
advances in AI to the early detection of disease outbreaks, combating 
sex trafficking rings, detection of emerging terror threats in social 
media, and to the development of cognitive tutoring tools that are now 
deployed in middle schools, high schools, and colleges in every state 
in the Nation. CMU alumni and faculty (typically on leave) hold leading 
positions in each of the major companies driving AI development, 
including at Microsoft, IBM, Google, Amazon, and Apple. CMU spin-off 
companies have been a catalyst to advancing AI innovations.
Fundamental Building Blocks of AI Systems
    AI is defined as ``the scientific understanding of the mechanisms 
underlying thought and intelligent behavior and their embodiment in 
machines.'' \3\ As we strategize on the next AI steps at Carnegie 
Mellon University, it helps us to break AI research into two broad 
categories: Autonomous AIs and Cognitive Assistant AIs. An Autonomous 
System has to make low level decisions by itself, for example a car 
that only has half a second to react to a collision simply cannot wait 
for a human. Or a constellation of satellites that has lost 
communications with the ground needs to figure out what they should be 
observing and transmitting to the ground while trading off the need to 
protect their advanced sensors against an energy attack. Cognitive 
Assistants, on the other hand, work hand in hand with a human: our 
smart phones telling us how to get to our kid's dental appointments are 
a simple example. Much more advanced examples include CMU faculty Sidd 
Srinivasa's work on intelligent robot arms controlled by humans in 
wheelchairs with high spinal cord injuries.
    AI involves transforming raw data--often massive amounts of raw 
data--into usable, actionable information. This cycle is known as 
``data to knowledge to action.'' The graphic below captures the 
``stack'' of elements that constitute AI. It is intended to show all of 
the areas that are important for ongoing AI research and development, 
to continue to expand our science and technology.
    The foundation is the device and hardware layer that includes 
powerful computer processing and storage capabilities. The data science 
kernel layer includes architectures for processing massive amounts of 
data--essential to managing the explosion of digital data available 
through the Internet and the growing global network of sensors. The 
Machine Learning (ML) layer includes algorithms that automate the 
detection of patterns and gather insights from large data sets far 
faster than humans could, even in many lifetimes. The modeling layer 
includes statistical methods and tools for prediction--the ability to 
move from the recognition of patterns in data to the ability to 
understand how complex real-world systems and structures behave. We 
mean ``systems'' in a general sense: from biological entities, to 
behaviors, to farms, to cities, to societies, to the cosmos. One 
example system is triage of inspection of cargo by U.S. Customs. 
Another is detecting and managing the response to potential false 
alarms by emergency responders. The decision support layer includes 
management information systems software that assembles facts, diagnoses 
status and evaluates potential actions. As an example, decision support 
applications are vital to enable autonomous vehicles to rapidly react 
to changing traffic patterns. They are also in use in flexible 
manufacturing systems in American factories. Decision support 
capabilities also include tools to detect human emotion and intent and 
create profiles from the physics of speech. Each of these layers builds 
on the layers below it.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    These building block layers power the two major application areas 
of AI--autonomous systems and capabilities to augment human 
performance. One application developed by a team of Carnegie Mellon 
University School of Computer Science researchers, led by Rita Singh, 
illustrates how the components of the AI ``stack'' can be applied to 
dramatically enhance intelligence analysis and crime-solving 
capabilities of organizations that deal with voice-based crimes.
    The world is increasingly communicating through voice: an estimated 
700 centuries worth of speech is transmitted over cellphones alone each 
day. While more people are talking than ever before, even more people 
are listening. There are 4 billion views of YouTube videos daily. These 
and other Internet-accessible videos have voice embedded in them. The 
tremendous outreach of voice today allows for a dangerous world where 
more and more crimes can be committed and propagated through voice 
alone. These crimes include those that affect people's personal 
security, such as harassment, threats, extortion through fraudulent 
phone calls etc., all the way to societal crimes that affect national 
security, like hoax calls, criminal propaganda, communication in 
organized crime, terrorist indoctrination etc.
    The CMU team is developing technologies that utilize the power of 
machine learning and AI to profile people through their voices. They 
are able to describe the physical appearance of a person, background 
and demographic facts about the person, and also the person's 
surroundings entirely from their voice. In recent work with the U.S. 
Coast Guard Investigative Services, the team analyzed scores of Mayday 
calls from hoax callers transmitted over national distress channels, 
and has provided physical descriptions of the perpetrators, and of 
their location and the equipment used that were sufficiently accurate 
to enable significant success in the investigative process.
    It is noteworthy that the U.S. law enforcement and security 
agencies as well as first responders are faced with hoax calls on a 
daily basis, and these collectively cost the Nation billions of dollars 
in misdirected and misused resources each year. Hoax calls are just one 
example. The ability to track and describe humans through their voice 
is useful in several disciplines of national intelligence, where voice 
is part of the intelligence information gathered.
    Our work builds on the fact that humans can make judgments about 
people from their voices, like their gender, emotional state, their 
state of health, and many others. The CMU team utilizes powerful AI 
techniques to achieve super-human capabilities that enable machines to 
make faster, more accurate, more abundant and deeper assessments of 
people from their voices. This is made possible by advances in AI, 
computing, machine learning and other related areas, and over two 
decades of developments in automatic speech and audio processing 
capabilities at CMU. The team hopes to be able to build physically 
accurate holograms of humans from their voices in the future.
    This work, and that of many others, demonstrates the power of AI to 
dramatically help with judgments that humans make and in doing so 
augment human capabilities. This case is also illustrative of what we 
at Carnegie Mellon believe will be a dominant pattern of AI deployment: 
work in close synergy with humans. The nature of work tasks will 
evolve, potentially dramatically in certain cases, and will demand new 
and different skills. AI systems that augment and complement human 
capabilities will help us as individuals and as a nation through this 
transition and beyond.
    Similar examples of AI already touch our daily lives. Smartphone 
applications that personalize services are based upon AI algorithms. 
Other AI applications are helping forecast crop yields, analyzing 
medical samples, and helping deploy police and fire resources. 
Autonomous systems are at work on city streets, on American farms, and 
patrolling the sea and air for our national defense.
    Intelligent AI systems will also include mobile robots and 
intelligent processing and decisionmaking among the sensory and 
actuation capabilities of the ``Internet of things.'' AI systems may 
always have limitations and will therefore be in a symbiotic/
coexistence relationship with humans, and with other AI systems. 
Designing and building these systems and relationships is a fruitful 
area for advances.
    Perhaps most critically, judgments that humans make in the area of 
national intelligence are vital to our safety and security. Combined 
with the wealth of data available today (including through 
crowdsourcing), AI is the future power source of these decisions--
processing far more possibilities and scenarios than humans could 
alone, and working closely with humans to keep us protected.
    And, we are just at the start of this AI revolution.
The Inflection Point and Emerging AI applications and Capabilities
    Two specific breakthroughs in the last five years have created the 
inflection point that makes this hearing so timely and essential. The 
first is the rapid advancement in digital datasets that are central to 
AI applications. Current estimates of the world's digital data are 
approaching 1.3 zettabytes or about 1.3 trillion gigabytes.\4\ Fueled 
by both research and applications, as well as a strong commitment to 
increasing access to government data, this explosion includes digital 
biomedical data, mapping data, traffic data, astronomical data, data 
from sensors monitoring machines and buildings, and data from social 
media capturing consumer trends from restaurants to travel patterns. 
Advanced AI applications are catalyzed by the availability of this 
data.
    The second major breakthrough is the development of deep learning 
techniques in machine learning. Deep learning involves a statistical 
methodology for solving problems in very large and very complex 
datasets. The term ``deep'' is derived from the ability of these 
learning methodologies to automatically generate new models and 
abstractions of the data. Deep learning brings about the potential for 
self-learning capabilities that are the central to dramatic advances in 
AI applications. More critically, deep learning creates the potential 
for advancing beyond narrow AI--applications focused on one specific 
task--to general AI that creates a platform for undertaking a wide 
range of complex tasks and responding in complex environments.
Thoughts on the Policy Implications of the Emerging AI Revolution
    The potential transformative impact of these future applications of 
AI to transform our economy, generate economic opportunity and address 
critical challenges to our security and quality of life is clear. 
However, the future--especially the future of U.S. leadership in this 
area--is not assured. Drawing upon my experiences as a researcher in 
machine learning, a technology business leader committed to developing 
AI capabilities, and now as a computer science dean engaging with the 
aspirations of faculty and students, here are selected thoughts on some 
of the key elements of a strategy to ensure continued U.S. leadership.
Winning the Talent War
    We need a comprehensive set of policies and incentives that 
addresses the skills needed to win in the AI-driven economy of the 21st 
Century. These policies must address the talent pipeline, from computer 
scientists per se to the workers impacted by new applications.
    The starting point is a recognition that we are already engaged in 
an international war for talent. Based upon my experience in a leading 
technology company, a computer science graduate with expert level AI 
training adds between $5 million and $10 million to the bottom line of 
a company.
    These people are very rare for two reasons. First, they need to 
have the natural abilities to deal with logic and math and software on 
a massive scale. Second, they need to survive very intense training 
that covers many disciplines at once, including algorithms, robotics, 
security, ethics, advanced probability and human-centered design.
    As a result of the rarity of these skills, young AI experts are 
being heavily competed for around the globe. We see crazy bidding wars 
taking place from Beijing to Boston to Pittsburgh to Paris. The United 
States is not winning in the rate of production of these young experts, 
and we have recommendations below on how to get back on track.
    Secondly, AI is one area where international innovation is coming 
primarily from universities. It is North American professors and their 
graduate students who have introduced all of the following great 
advances in AI in recent years: self driving, deep learning, advanced 
human recognition, emotion detection, provable AI safety, spoken dialog 
systems, autonomous helicopters, intelligent traffic control, and many 
others. These have all been taken into the corporate and military 
worlds through technology transition and through many professors and 
students transitioning with their technology. The success of AI 
professors has had great benefit for the economy and security, but it 
is getting harder and harder to entice new AI geniuses to replenish the 
ranks of North American professors. The concerns about their retention 
are twofold: it is increasingly lucrative to abandon an academic 
position and also increasingly hard to raise funding for university 
research. These professors are very important because they are the ones 
producing thousands of AI experts for the country every year. If the 
U.S. loses many of these professors--and fails to continue the pipeline 
from graduate school--the supply if U.S. AI experts will dry up.
    We will need a balanced set of policies and incentives to ensure 
that we can provide the talent companies need while securing our long 
term capacity for research and innovation. This requires recognizing 
the imperatives of retaining top faculty and supporting graduate 
students. To support faculty retention we may wish to consider 
strategies utilized by some of our international competitors who issue 
competitive ``star grants'': multi-year awards to the top 100 
researchers to enable them and inspire them to continue their academic 
research careers. To maintain our base of graduate students who are 
central to our research leadership, consideration should be given to 
expanding fellowships focused explicitly on AI-related fields and 
expanding the number of multi-year, broad-based research awards that 
enable faculty to provide support for students throughout their 
graduate studies and within ambitious projects.
    We also need to move aggressively to build the pipeline of computer 
science talent. The Every Student Succeeds Act, the ESEA 
reauthorization passed by this Congress, makes an important start by 
emphasizing the importance of computer science in STEM education. It is 
also increasingly vital to foster stronger collaborations across the 
education spectrum: for example, between research universities and 
community colleges and between higher education institutions and K-12 
to enhance curricula, teacher education, and student engagement.
    As has been vital in all periods of discovery and innovation, it is 
essential that the United States retain its ability to attract the best 
and brightest talent from around the world to study here, work here, 
perform world-class research and development here, and start American 
companies, all of which serve as engines for growth and national 
prosperity.
    For example, Carnegie Mellon is now engaged in a collaboration with 
Microsoft's TEALS program and Pittsburgh Public Schools to enhance the 
ability of teachers to introduce computational concepts throughout the 
curriculum, by drawing on volunteer computer scientists who understand 
the importance and urgency of computer science education. Similar 
collaborations are taking place across the Nation. We will need to 
explore how best to incentivize formal and informal learning 
initiatives in all communities.
    Winning the talent war will also require fundamentally new 
approaches to workforce training. Many workforce programs tend to focus 
on shifting individuals to new careers or training workers to operate a 
specific type of equipment. Neither model is likely to be completely 
applicable to empower workers to thrive as AI applications impact a 
wide range of industries.
    It will not be necessary for workers to have a computer science 
degree to thrive in the AI economy. But the capacity and skills to work 
with advanced machines and understand computational processes will be 
essential. This will require a mix of technical skills and an 
understanding of data analytics. This new workforce environment is 
already taking shape. There are construction firms using advertisements 
highlighting the opportunity to work alongside robots as a benefit in 
their efforts to attract skilled workers. Advanced manufacturing is 
another area that will build on the strength of robotics, while 
requiring more and more tech-savvy workers.
    We have two great resources in creating a skill development 
environment for the AI era. First, more than in any other period of 
technological development, we have the power of intentionality. We can 
advance AI research and innovations with explicit consideration of the 
human engagement and models of human/machine interaction in mind. It 
will be vital for workers and workforce development professionals to 
become integral to the AI research process to realize this opportunity.
    Second, the AI revolution itself will give us unprecedented tools 
for workers to develop new skills. AI is already creating the capacity 
to personalize training for the individual worker, for example by 
understanding and modeling each learner's path through a curriculum, 
and blend technical and academic content that is targeted to the 
specific job. Combined with innovations like wearable computing 
devices, entirely new, more powerful approaches to on the job training 
are being deployed.
Creating a National Framework for AI Research and Innovation
    The amazing AI application that describes individuals solely 
through their voice is built on over 20 years of federally funded 
research. The next wave of breakthroughs in AI will take place in 
academic labs, startups and major companies. We will need a national 
research and innovation framework tailored to this ecosystem.
    The starting point is Federal research focused on the critical 
fundamental gaps impeding AI development. The recent reports prepared 
by the White House National Science and Technology Council, with 
extensive input from academic and industry researchers, is an excellent 
starting point for identifying cross-cutting foundational research 
areas.\5\ As noted in the NSTC reports, we will need to develop a 
science of safety, dependability, and trust for AI systems. Traditional 
verification methodologies and approaches are not fully applicable to 
systems that learn and continually improve. This effort will require 
both investments in advancing new methodologies and the creation of 
test beds.
    This focus on the science of safety and trust must also include 
engagement on issues of privacy and the ethics of AI deployment. 
Through a gift from K&L Gates, Carnegie Mellon University is launching 
a new initiative focused on ethics, trust, and privacy. Federal support 
that helps engage computer scientists, social scientists, legal and 
policy experts, and industry leaders will also be key.
    Another critical gap highlighted in the White House reports 
involves the imperative for continued research focused on systems for 
human-computer interaction. Research advances will ensure the effective 
design of AI systems with user friendly interfaces that work seamlessly 
alongside humans in a variety of settings. Future AI systems must be 
able to adapt to different challenges, such as providing flexible 
automation systems that switch from worker to machine operation and 
systems designed to address situations where the operator is overloaded 
by the complexity of his or her tasks.
    Finally, it will also be critical to invest in the foundational 
capabilities for scaling AI systems. The most critical need is to 
collaborate across industry and government to improve access to the 
knowledge that fuels the capabilities of AI systems. One promising 
dialogue in this area is well underway. Representatives of agencies, 
universities, and industry have worked on the development of a 
collaborative AI infrastructure initiative initially called The Open 
Knowledge Network (TOkeN). TOkeN would provide a vital core 
infrastructure for AI development--interfaces to large data and 
knowledge bases that can accelerate the ability of AI systems to create 
products and services, broadly speaking, in health care, education, 
climate and planetary sciences, energy, manufacturing, and a host of 
other areas. TOkeN would be an open webscale, machine-readable 
knowledge network aspiring to include every known concept from the 
world of science, business, medicine, and human affairs--including both 
raw data and semantic information. The creation of TOkeN would enable 
the rapid expansion of AI applications for diagnosing disease, 
designing new products or production processes, and serving our 
citizens in many other ways.
    The collaborators intend that TOkeN, if implemented, would 
represent the kind of foundational infrastructure that was created to 
launch the Internet era. In the early 1980s, proprietary, disconnected 
islands of technology prevented the scaling of applications and 
services--the Internet connected them. Today, islands of proprietary 
and disconnected data and knowledge sets are impeding academic research 
and industry innovation. With a relatively limited investment we can 
create the foundation for scalable AI development and accelerate 
innovation.
    In addition to a focused research agenda we will need a research 
framework that recognizes the nonlinear nature of AI innovation. Basic 
and applied development is taking place in universities, startups, and 
companies. We need to incentivize collaboration across this ecosystem. 
The Computing Community Consortium (CCC) has advanced thoughts on how 
new models of public/private, industry/academic partnerships can be 
crafted to meet this challenge.\6\
    One powerful tool to stimulate this collaboration is Federal 
support for grand challenges that bring together companies, students, 
faculty, and often state and local governments to apply innovations to 
address particular critical societal objectives and opportunities. The 
DARPA grand challenges have helped advance both the development of 
autonomous vehicles and automated cyber defense capabilities. AI grand 
challenges focused on issues such as education, manufacturing, or 
opportunities to expand economic opportunity in rural areas would have 
a catalytic impact on both fundamental research and commercial 
applications.
Align Research and Development with Smart Regulatory and Procurement 
        Initiatives
    The development and scaling of AI innovations will demand new 
regulatory paradigms. Initial positive steps have been undertaken to 
help advance the deployment of autonomous vehicles but we must summon 
federal, state, and local, as well as industry and citizen 
collaboration to craft smart regulations that advance AI and tap its 
power to more efficiently realize public policy objectives for health 
and safety. Without progress on regulatory issues AI development will 
stagnate or, more likely, innovations born in the U.S. will take root 
abroad, impeding national competitiveness. Combining regulatory 
experiments and test beds with strategic procurement initiatives to 
help advance AI products and services will be vital.
We need an ``All In'' Approach
    Synergistic engagement among the Federal Government and our 
``laboratories of democracy,'' the states, has been a powerful tool for 
U.S. science since the efforts to revitalize the competitiveness of the 
U.S. semiconductor industry in the 1980s. For example, Federal research 
and commercialization investments in the life sciences have catalyzed 
billions of dollars of state and local initiatives.\7\ These state and 
local efforts help augment research infrastructure, train workers, 
expand K-12 curricula, and incubate and nurture startups. Engagement of 
the states in AI policy is particularly critical as we seek to advance 
STEM education and workforce training initiatives, foster an innovative 
regulatory environment, and continually cultivate a vibrant environment 
for incubating AI startups.
Conclusion
    Thank you once again for convening this hearing and for the 
opportunity to join my distinguished colleagues to share thoughts on 
the direction and implications of advances in Artificial Intelligence. 
My experiences as a researcher, business leader, and dean lead me to 
believe that applications of AI will begin to accelerate rapidly across 
a host of industries. I believe these applications will expand economic 
opportunity and contribute to addressing major societal challenges in 
health care, food production, security and defense, energy, and the 
environment and education. The ``democratizing'' power of AI 
applications to bring new capabilities to individuals on the job, in 
schools, and in our homes and communities is at the heart of this 
potential.
    My experiences have also made me greatly aware that we are in a 
global race for talent and innovation. Focused attention on the impact 
these applications may make on the nature of work in a host of 
industries and the challenges they bring to our privacy is vital. This 
will require drawing upon the very best American traditions of 
collaboration across government, industry and academia.
    It will also require research investments to advance innovation in 
key gap areas that are core to advancing AI and sparking innovation, 
entrepreneurship and new products and services. We will need an 
innovative focus on regulatory environments that will be transformed by 
AI. We must nurture our talent resources: from retaining top 
researchers, to attracting the best and brightest from across the 
globe, to creating a national pipeline to nurture students in every 
community and creative new approaches to support existing workers. I 
speak with confidence in stating that the university research, 
education, and industry communities stand ready to engage in helping to 
ensure that the AI revolution expands opportunities to all Americans.
End Notes and References
    1. Why Artificial Intelligence is the Future of Growth, Mark Purdy 
and Paul Daugherty, Accenture, 2016, P.19.
    2. See for example the report on research conducted by Forrester, 
``AI will eliminate 6 percent of jobs in five years, says report,'' 
Harriet Taylor, CNBC, September 12, 2016.
    3. See American Association for the Advancement of Artificial 
Intelligence, http://www.aaai.org/
    4. ``World's Internet traffic to surpass one zettabyte in 2016,'' 
James Titcomb, The Telegraph, February 4, 2016.
    5. The National Artificial Intelligence Research and Development 
Strategic Plan, National Science and Technology Council, Networking and 
Information Technology Research and Development Subcommittee, October 
2016. See pages 16-22, and Preparing for the Future of Artificial 
Intelligence, National Science and Technology Council, Committee on 
Technology, October, 2016.
    6. The Future of Computing Research: Industry-Academic 
Collaborations Version 2, Computing Community Consortium, 2016.
    7. For example, in 2001 Pennsylvania committed $2 billion in its 
tobacco settlement funding allocation to support research by 
universities and health research institutions, support venture 
investments in the life sciences and fund regional cluster initiatives. 
In 2008, Massachusetts committed $1 billion for a 10 year initiative 
for capital investments in research infrastructure and start-ups. 
Michigan invested $1 billion in 1999 over 20 years to support the 
growth of life sciences corridors. For a summary of some of these 
initiatives and other state efforts see ``Successful State Initiatives 
that Encourage Bioscience Industry Growth,'' Peter Pellerito, George 
Goodno, Biotechnology Industry Organization (BIO), 2012.

    Senator Cruz. Thank you, Dr. Moore.
    Mr. Brockman.

  STATEMENT OF GREG BROCKMAN, CO-FOUNDER AND CHIEF TECHNOLOGY 
                        OFFICER, OpenAI

    Ranking Member Peters, distinguished members of the 
Subcommittee, as well as their staff. This is a really 
important session, and I'm honored to be giving this testimony 
today.
    I'm Greg Brockman, Co-Founder and Chief Technology Officer 
of OpenAI. OpenAI is a nonprofit AI research company with a 
billion dollars in funding. Our mission is to build safe, 
advanced AI technology, and to ensure that its benefits are 
distributed to everyone. We're chaired by technology executives 
Sam Altman and Elon Musk.
    The U.S. has led essentially all technological 
breakthroughs of the past 100 years. And they've consistently 
created new companies, new jobs, and increased American 
competitiveness in the world. AI has the potential to be our 
biggest advance yet.
    Today, we have a lead, but we don't have a monopoly, when 
it comes to AI. This year, Chinese teams won the top categories 
in a Stanford annual image recognition context. South Korea 
declared a billion-dollar AI fund. Canada actually produced a 
lot of the technologies that have kicked off the current boom. 
And they recently announced their own renewed investment into 
AI.
    So, right now I would like to share three key points for 
how the U.S. can lead in AI:
    The first of these is that we need to compete on 
applications. But, when it comes to basic research, that should 
be open and collaborative. Today, AI applications are 
broadening. They're helping farmers decide which fields to 
seed. They're helping doctors identify cancers. But, the 
surprising thing is that industry is not just capitalizing on 
the advances that have been made to date. Companies like 
Facebook, Google, Microsoft, they're all performing the basic 
scientific research, the kind of work that you would expect to 
see just in academia. And they're trying to create the new AI 
building blocks that can then be assembled into products.
    And even more surprisingly, these industrial labs, they're 
publishing everything that they discover. They are not holding 
back any secrets. And the reason they do this is because 
publication allows them to pool their resources to make faster 
breakthroughs and to attract world-class scientists. Now, these 
companies, they stay competitive by publishing the basic 
research, but they don't talk about how they put this stuff 
together to actually make products, to actually make the things 
that are going to make dollars for the company. For example, 
IBM Watson, Microsoft Cortana, there aren't many papers on how 
those are built. And the thing that's happened is that this 
openness has concentrated the world's AI research and 
corresponding commercial value all around the United States. 
This includes attracting many of the Canadian scientists who 
really kicked off this AI boom. They're here now. In fact, one 
of them is one of my cofounders at OpenAI. And, importantly, 
this has allowed us to define the cultures, the values, and the 
standards of the global AI community.
    Now, this field is moving so quickly that basic research 
advances tend to find their way into products in months, not 
years. And so, the government can directly invest in American 
innovation and economic value by funding basic AI research.
    The second thing that we need to do is that we need public 
measurement and contests. There's really a long history of 
contests causing major advances in the field. For example, the 
DARPA Grand Challenge really led directly to the self-driving 
technology that's being commercialized today. But, really 
important, as well, measures and contests help distinguish hype 
from substance, and they offer better forecasting. And so, good 
policy responses and a healthy public debate are really going 
to depend on people having clear data about how the technology 
is progressing. What can we do? What still remains science 
fiction? How fast are things moving? So, we really support 
OSTP's recommendation that the government keep a close watch on 
AI advancement, and that it work with industry to measure it.
    The third thing that we need is that we need industry, 
government, and academia to start coordinating on safety, 
security, and ethics. The Internet was really built with 
security as an afterthought. And we're still paying the cost 
for that today.
    With AI, we should consider safety, security, and ethics as 
early as possible--and that means today--and start baking these 
into the technologies--into the fundamental building blocks 
that are being created today.
    Academic and industrial participants are already starting 
to coordinate on responsible development of AI. For example, we 
recently published a paper, together with Stanford, Berkeley, 
and Google, laying out a roadmap for AI safety research. Now, 
what would help is feedback from the government about what 
issues are most concerning to it so that we can start 
addressing those from as early a date as possible.
    As the Chairman said in his opening statement, Accenture 
recently reported that AI has the potential to double economic 
growth rates by 2035, which would really make it into the 
engine for our future economy. The best way to create a good 
future is to invent it. And we have that opportunity with AI by 
investing in open, basic research, by creating competitions and 
measurement, and by coordinating on safety, security, and 
ethics.
    Thank you for your time, and I look forward to the Q&A.
    [The prepared statement of Mr. Brockman follows:]

            Prepared Statement of Greg Brockman, Co-Founder 
                  and Chief Technology Officer, OpenAI
    Thank you Chairman Cruz, Ranking Member Peters, distinguished 
members of the Subcommittee. Today's hearing presents an important 
first opportunity for the members of the Senate to understand and 
analyze the potential impacts of artificial intelligence on our Nation 
and the world, and to refine thinking on the best ways in which the 
U.S. Government might approach AI. I'm honored to have been invited to 
give this testimony today.
    By way of introduction, I'm Greg Brockman, co-founder and Chief 
Technology Officer of OpenAI. OpenAI is a non-profit AI research 
company. Our mission is to build safe, advanced AI technology and 
ensure that its benefits are distributed to everyone. OpenAI is chaired 
by technology executives Sam Altman and Elon Musk.
    The U.S. has led the way in almost all technological breakthroughs 
of the last hundred years, and we've reaped enormous economic rewards 
as a result. Currently, we have a lead, but hardly a monopoly, in AI. 
For instance, this year Chinese teams won the top categories in a 
Stanford University-led image recognition competition. South Korea has 
declared a billion dollar AI fund. Canada produced some technologies 
enabling the current boom, and recently announced an investment into 
key areas of AI.
    I'd like to share 3 key points for how we can best succeed in AI 
and what the U.S. Government might do to advance this agenda. First, we 
need to compete on applications, but cooperate on open, basic research. 
Second, we need to create public measurement and contests. And third, 
we need to increase coordination between industry and government on 
safety, security, and ethics.
I. Competition and Cooperation
    AI applications are rapidly broadening from what they were just a 
few years ago: from helping farmers decide which fields to seed, to 
warehouse robots, to medical diagnostics, certain AI-enabled 
applications are penetrating and enabling businesses and improving 
everyday life. These and other applications will create new companies 
and new jobs that don't exist today--in much the same way that the 
Internet did. But even discovering the full range of applications 
requires significant scientific advances. So industry is not just 
working on applications: companies like Facebook, Google, and Microsoft 
are performing basic research as well, trying to create the essential 
AI building blocks which can later be assembled into products.
    Perhaps surprisingly, the industry labs are publishing everything 
they discover. Publication allows them to pool their resources to 
create faster breakthroughs, and to attract top scientists, most of 
whom are motivated more by advancing society and improving the future, 
than personal financial gain.
    Companies stay competitive by publishing their basic research, but 
not the details of their products. The inventor of a technique is 
usually the first to deploy it, as it has the right in-house 
infrastructure and expertise. For example, AI techniques developed by 
Google's subsidiary DeepMind to solve Atari video games were applied to 
increase the efficiency of Google's own data centers. DeepMind shared 
their basic techniques by publishing the Atari research papers, but did 
not share their applied work on data center efficiency.
    Openness enables academia and industry to reinforce each other. 
Andrew Moore of Carnegie Mellon University says it's not unusual that 
between 10 and 20 percent of the staff he hires will take leaves of 
absence to work in industry or found a startup. Pieter Abbeel, a 
researcher at OpenAI, splits his time between OpenAI and the University 
of California at Berkeley; likewise, Stanford Professor Fei-Fei Li is 
spending time at both Stanford and Google; and many other companies and 
organizations work with academics. This ensures that the private sector 
is able to master the latest scientific techniques, and that 
universities are able to understand the problems relevant for industry.
    Openness has concentrated the world's AI research activity around 
the U.S. (including attracting many of the Canadian scientists who 
helped start the current AI boom), and allowed us to define its culture 
and values. Foreign firms like China's Baidu have opened U.S.-based 
research labs and have also started publishing. As AI becomes 
increasingly useful, the pool of experts we're gathering will be 
invaluable to ensuring that its economic activity also remains centered 
on the U.S.
Recommendations--
    We recommend the following, to ensure that our basic AI research 
community remains the strongest in the world:

        A. Maintain or increase basic research funding for AI: In 2015, 
        the government's unclassified investment in AI-related 
        technology was approximately $1.1 billion, according to The 
        National Artificial Intelligence Research and Development 
        Strategic Plan report from the National Science and Technology 
        Council.\1\ As highlighted by Jason Furman, Chairman of the 
        Council of Economic Advisers, there's evidence that the 
        socially optimal level of funding for basic research is two to 
        four times greater than actual spending.\2\ Given that it only 
        takes months for a basic AI advance to result in new companies 
        and products, usually by whoever made the advance, we support 
        increasing funding for basic research in this domain. If we 
        want these breakthroughs to be made in the U.S., we'll need to 
        conduct basic research across a number of subfields of AI, and 
        encourage the community to share their insights with each 
        other. We'll need to allow our academics to freely explore 
        ideas that go against consensus, or whose value has high 
        uncertainty. This is supported by history: companies like 
        Google and Microsoft rely on AI technologies that originated 
        with a small group of maverick academics.
---------------------------------------------------------------------------
    \1\ National Science and Technology Council, Networking and 
Information Technology Research and Development Subcommittee. 2016. 
``The National Artificial Intelligence Research and Development 
Strategic Plan'' report: https://www.whitehouse.gov/sites/default/
files/whitehouse_files/microsites/ostp/NSTC/
national_ai_rd_strategic_plan.pdf
    \2\ Furman, Jason. 2016. ``Is This Time Different? The 
Opportunities and Challenges of Artificial Intelligence'' report: 
https://www.whitehouse.gov/sites/default/files/page/files/20160707
_cea_ai_furman.pdf

        B. Increase the supply of AI academics: Industry has an 
        insatiable demand for people with AI training, which will only 
        increase for the foreseeable future. We need to grow the supply 
        of people trained in AI techniques; this will let us make more 
        research breakthroughs, give industry the people it needs to 
        commercialize the basic science, and train the next generation 
        of scientists. NSF could explore adjusting its policies to 
        allow more competitive salaries for those working on Federal 
---------------------------------------------------------------------------
        academic grants.

        C. Enhance the professional diversity of the AI field: Today, 
        AI consists mostly of individuals with degrees in computer 
        science, mathematics, and neuroscience, with a significant 
        gender bias towards men. As AI increases its societal impact, 
        we need to increase the diversity of professional views within 
        the AI community. Government can explore making more 
        interdisciplinary research grants available to incentivize 
        experts in other fields, such as law or agriculture or 
        philosophy, to work with AI researchers. We also support the 
        White House's Computer Science for All initiative, and the 
        OSTP's recommendation that government should create a Federal 
        workforce with diverse perspectives on AI.
II. The Need For Public Measurement and Contests
    Objective measures of progress help government and the public 
distinguish real progress from hype. It's very easy to sensationalize 
AI research, but we should remember that advanced AI has seemed just 
around the corner for decades. Good policy responses and a healthy 
public debate hinge on people having access to clear data about which 
parts of the technology are progressing, and how quickly. Given that 
some AI technologies, such as self-driving cars, have the potential to 
impact society in a number of significant ways, we support OSTP's 
recommendation that the government keep a close watch on the 
advancement of specific AI technologies, and work with industry to 
measure the progression of the technology.
    Also, having a measurable goal for AI technologies helps 
researchers select which problems to solve. In 2004, DARPA hosted a 
self-driving car competition along a 150-mile course in the Mojave 
Desert--the top competitor made it only seven miles. By 2007, DARPA 
hosted an Urban Challenge to test self-driving cars on a complex, urban 
environment, and six of the eleven teams completed the course. Today, 
Uber, Google, Tesla, and others are working on commercializing self-
driving car technology.
    Similarly, when Fei-Fei Li and her collaborators at Stanford 
launched the image recognition ImageNet competition in 2010, it was 
designed to be beyond the capabilities of existing systems. That 
impossibility gave the world's research community an incentive to 
develop techniques at the very edge of possibility. In 2012, academics 
won first place using a neural network-based approach, which proved the 
value of the technique and kickstarted the current AI boom. The winning 
ImageNet team formed a startup and were subsequently hired by industry 
to create new products. One member, Ilya Sutskever, is one of my co-
founders at OpenAI, and the other two members work at Google. This 
shows how competitions can provoke research breakthroughs, and 
translate into an economic advantage for industry.
    We're moving from an era of narrow AI systems to general ones. 
Narrow AI systems typically do one thing extremely well, like 
categorize an image, transcribe a speech, or master a computer game. 
General AI systems will contain suites of different capabilities; they 
will be able to solve many tasks and improvise new solutions when they 
run into trouble. They will require new ways to test and benchmark 
their performance. Measuring the capabilities of these new multi-
purpose systems will help government track the technology's progress 
and respond accordingly.
Recommendations--
    Government can create objective data about AI progress in the 
following ways:

        A. Modern competitions: AI systems have often been measured by 
        performance on a static dataset. Modern systems will act in the 
        real world, and their actions will influence their 
        surroundings, so static datasets are a poor way to measure 
        performance. We need competitions which capture more of the 
        complexity of the real world, particularly in developing areas 
        such as robotics, personal assistants, and language 
        understanding. The government can continue designing 
        competitions itself, as DARPA did recently with the Cyber Grand 
        Challenge, or support others who are doing so.

        B. Government information gathering: Government should gather 
        information about the AI field as a whole. Researchers tend to 
        focus on advancing the state of the art in one area, but the 
        bigger picture is likely to be crucial for policymakers, and 
        valuable to researchers as well. The government can invest in 
        careful monitoring of the state of the field, forecasting its 
        progress, and predicting the onset of significant AI 
        applications.
III. Increase Coordination Between Industry and Government on Safety, 
        Security, and Ethics
    The Internet was built with security as an afterthought, rather 
than a core principle. We're still paying the cost for that today, with 
companies such as Target being hacked due to using insecure 
communication protocols. With AI, we should consider safety, security, 
and ethics as early as possible, and bake these into the technologies 
we develop.
    Academic and industrial participants are starting to coordinate on 
responsible development of AI. For example, we recently worked with 
researchers from Stanford, Berkeley, and Google to lay out a roadmap 
for safety research in our paper ``Concrete Problems in AI Safety.'' 
\3\ Non-profit groups like the Partnership on AI and OpenAI are forming 
to ensure that research is done responsibly and beneficially.
---------------------------------------------------------------------------
    \3\ Amodei, Dario et al., 2016. ``Concrete Problems in AI Safety'' 
research paper: https://arxiv.org/abs/1606.06565
---------------------------------------------------------------------------
Recommendations--
    Industry dialog: Government can help the AI community by giving 
feedback about the what aspects of progress it needs to understand in 
preparing policy. As the OSTP recommended in its report, Preparing for 
the future of Artificial Intelligence,\4\ the NSTC Subcommittee on 
Machine Learning and Artificial Intelligence should meet with industry 
participants to track the progression of AI. OpenAI and our peers can 
use these meetings to understand what we should monitor in our own work 
to give government the telemetry needed to calibrate policy responses.
---------------------------------------------------------------------------
    \4\ Executive Office of the President, National Science and 
Technology Council Committee on Technology. 2016. ``Preparing for the 
future of artificial intelligence'' report: https://www.whitehouse.gov/
sites/default/files/whitehouse_files/microsites/ostp/NSTC/preparing_
for_the_future_of_ai.pdf
---------------------------------------------------------------------------
    Accenture recently reported that AI has the potential to double 
economic growth rates by 2035, which would make it the engine for our 
future economy. Having the most powerful economy in the world will 
eventually require having the most AI-driven one, and the U.S. 
accordingly must lead the development and application of AI 
technologies along the way. The best way to ensure a good future is to 
invent it.
    Thank you for your time and focus on this critical topic. I am 
pleased to address any questions.

    Senator Cruz. Thank you, Mr. Brockman. And I was encouraged 
by your testimony about the Canadian scientists coming to this 
country. And I will say, as someone born in Calgary, that I 
think there are colleagues of mine on both sides of the aisle 
who have concerns about Canadians coming to this country.
    [Laughter.]
    Senator Cruz. Dr. Chien.

        STATEMENT OF DR. STEVE A. CHIEN, TECHNICAL GROUP

         SUPERVISOR, ARTIFICIAL INTELLIGENCE GROUP, JET

     PROPULSION LABORATORY, NATIONAL AERONAUTICS AND SPACE 
                         ADMINISTRATION

    Dr. Chien. Chairman Cruz, Ranking Member Peters, and 
members of the Committee, thank you for this great opportunity 
to speak to you on this topic of artificial intelligence, and 
specifically its relationship to space exploration.
    For the record, I'm here as an employee of NASA's Jet 
Propulsion Laboratory, which is a federally-funded research and 
development center managed by the California Institute of 
Technology for NASA.
    As a Senior Research Scientist in Autonomous Systems at 
JPL, I work on the development and application of artificial 
intelligence to NASA's missions. I've had the privilege to lead 
the deployment of AI software to NASA's Earth Observing I 
mission, NASA's Mars Exploration Rovers mission and also the 
European Space Agency's Rosetta mission. We focus on using AI 
to improve the effectiveness of conducting science and 
observation activities to--in NASA's missions.
    I know of no better introduction to this topic than to 
point out that, as we speak right now, there's a spacecraft, 
called Earth Observing I, that's flying about 7,000 kilometers 
overhead, weighs about 500 kilograms, and is flying at 7 and a 
half kilometers per second, that is fully under the control of 
AI software. This spacecraft has been under the control of this 
AI software for over a dozen years and has successfully 
acquired over 60,000 images under the control of the software, 
and issued over 2.6 million commands. The AI software that's 
used in the operation of this mission includes constraint-based 
scheduling software to enable the spacecraft to be operated by 
end users, scientists and people who monitor natural hazards, 
such as volcanoes and flooding. Onboard software, including 
machine-learning classifiers, enables the spacecraft to more 
effectively monitor these science events--again, flooding, 
volcanism, as well as cryosphere, the freeze and thaw of the 
Earth's environment.
    Furthermore, in a range of collaborations all around the 
world, this spacecraft has been integrated into a network with 
other space systems as well as ground sensor networks. And 
these--the extent of this multi-agent AI system goes as far as 
Thailand, Iceland, Sicily, Namibia, and even Antarctica. What 
this system enables us to do is enable data from one part of 
the system, such as a seismographic sensor at a volcano in 
Antarctica, to trigger the observation of the system via space 
assets.
    Going even further afield, on Mars, autonomous navigation 
software is at the heart of all of the Mars Rover exploration 
missions. And this is, at its core, AI-based search software. 
AI and computer-vision software form the core of the AEGIS 
system, which is now operational on both the Mars Exploration 
Rover mission and the Mars Science Laboratory Rover. AEGIS 
enables the Rovers to automatically target science measurements 
based on general science criteria, such as texture, size, 
shape, and color, without the ground in the loop, dramatically 
enhancing the science that the Rovers can conduct.
    Machine learning has also had significant impact in dealing 
with the enormous data sets that space missions produce. Just 
two examples. In the very long baseline array, radio science is 
being enhanced by machine learning. Machine learning is used to 
identify millisecond-duration radio transients and reject radio 
frequency interference events. Here, machine learning allows 
the automatic triage from thousands of candidates down to tens 
of candidates for manual review by highly expert scientists.
    In visual astronomy, in the Intermediate Palomar Transient 
Facility, machine learning is applied to identifying 
transients. Point transients--point source transients are 
typically supernova, and streaking transients are near-Earth 
objects. Here, machine learning has been used to perform vast 
daily triage of millions of candidate events down to tens of 
events; again, allowing the human experts to focus on the most 
likely candidates and enhance the science.
    While these examples may give you the impression that AI is 
commonplace in space exploration, I assure you this is not the 
case. The above examples are a sampling of AI success stories 
on a small fraction of the overall space missions. Because of 
the high-stakes nature of space exploration, the adoption of 
disruptive technologies like AI requires an extensive track 
record of success as well as continuous contact with the key 
stakeholders of science, operations, and engineering. However, 
AI has made tremendous progress in the recent years. 
Instruments in the Mars 2020 Rover will have unprecedented 
ability to recognize features and retarget themselves to 
enhance science. The Mars 2020 Rover mission is also 
investigating other use of onboard scheduling technologies to 
best use available Rover resources. And the Europa multi-flyby 
mission is also investigating the use of onboard autonomy 
capabilities to achieve science despite Jupiter radiation--the 
Jupiter radiation environment, which causes processor resets.
    In the future, AI will also have applications in the manned 
program in order to best use scarce astronaut time resources. 
Past efforts have placed AI in a critical position for future 
space exploration to increasingly hostile and distant 
destinations. What we need is sustained resources and a 
commitment, support, and vision for AI to fulfill its vast 
potential to revolutionize space exploration.
    Thank you very much for your time.
    [The prepared statement of Dr. Chien follows:]

 Prepared Statement of Dr. Steve A. Chien, Technical Group Supervisor, 
  Artificial Intelligence Group, Jet Propulsion Laboratory, National 
                  Aeronautics and Space Administration
    Chairman Cruz, Ranking Member Peters, and Members of the Committee, 
thank you for the opportunity to speak to you on this topic of 
Artificial Intelligence (AI), and specifically it's relation to space 
exploration.
    For the record, I am here as an employee of NASA's Jet Propulsion 
Laboratory, which is a Federally Funded Research & Development Center, 
managed by the California Institute of Technology for NASA.
    As a Senior Research Scientist specializing in Autonomous Systems 
at JPL, I work on the development and application of Artificial 
Intelligence to NASA missions. I have had the privilege to lead the 
deployment of AI software to NASA's Earth Observing One and Mars 
Exploration Rovers missions, as well as for European Space Agency's 
Rosetta mission. Separately, The Artificial Intelligence Group has 
deployed additional AI software to the Mars Exploration Rovers and Mars 
Science Laboratory missions, as well as to NASA's Deep Space Network. 
In my group and related groups at JPL, we focus on using AI to improve 
the performance of space exploration assets: to conduct more science, 
improve response to track science phenomena and natural hazards, and 
increase the efficiency of operations.
    I know of no better introduction to this topic than to point out 
that as we speak, a spacecraft, Earth Observing One, weighing 500 kg, 
flying at about 7.5 km/s, at about 700km altitude, is operating under 
the control of Artificial Intelligence software called ``The Autonomous 
Sciencecraft.'' This software, which has parts both on the spacecraft 
and in the ground system, has been the primary operations system for 
this mission for over a dozen years. In this time, the spacecraft has 
acquired over 60,000 images and issued over 2.6 million commands.
    This AI software has improved the efficiency of spacecraft 
operations using AI constraint-based scheduling technology, enabling 
direct tasking by end users such as scientists and natural hazard 
institutions. Additionally, onboard smarts (including AI/Machine 
Learning classification techniques) are used to detect and track 
volcanic activity, wildfires, and flooding to enable rapid generation 
of alerts and summary products. The most advanced of this software uses 
imaging spectroscopy to discriminate between different substances in 
images--these techniques have wide applications to environmental 
monitoring.
    Furthermore, in a range of collaborations, this spacecraft has been 
networked together (via the ground and Internet) in a sensorweb with 
other spacecraft and ground sensor networks to provide a unique 
capability to track volcanism, wildfires, and flooding worldwide, with 
linkages to Thailand, Iceland, Hawaii, Sicily, Namibia, and even 
Antarctica to name a few. This AI multi-agent system enables detections 
from one part of the system to automatically trigger targeted 
observations from another part of the system, as well as enabling 
autonomous retrieval, analysis, and delivery of relevant data to 
interested parties.
    On Mars, the autonomous navigation software used on all of the Mars 
rovers has at its core AI-based search software. AI and computer vision 
software form the core of the Autonomous Exploration for Gathering 
Increased Science (AEGIS) system, now in operational use on both the 
Mars Exploration Rover and Mars Science Laboratory Rovers. AEGIS 
enables the rovers to autonomously target science measurements based on 
general science criteria such as texture, size, shape, and color 
without the ground in the loop, thereby improving rover science 
productivity.
    Machine Learning also has significant impact in dealing with the 
enormous datasets generated in science observatories. Just a few 
examples follow:

  <bullet> In the Very Long Baseline Array (VLBA) Fast Radio Transients 
        Experiment (V-FASTR), Machine Learning is used to identify 
        millisecond duration radio transients and reject radio 
        frequency interference in the VLBA. This Machine Learning 
        enables fast triage of order of 10\3\ transient candidates 
        daily to 10's of candidates for human review.

  <bullet> In the Intermediate Palomar Transient Factory (i-PTF), 
        Machine Learning is applied to visual imagery to identify 
        candidate point source (e.g., supernovae) and streaking (e.g., 
        near Earth Asteroids) transients for daily fast triage from 
        order of 10\6\ candidates to 10's of candidates for human 
        review.

    Significant AI technology is used in the scheduling systems for 
space missions. These systems enable the operations teams to manage the 
incredible complexity of spacecraft and science with often thousands to 
tens of thousands of science and engineering activities and 
constraints. These systems include SPIKE for Hubble Space Telescope, 
Spitzer Space Telescope, as well planned use for the James Webb Space 
Telescope, the MAPGEN use for the Mars Exploration Rovers and LADEE 
Activity Scheduling System (LASS) for the Lunar Atmospheric Dust 
Environment Explorer (LADEE) mission. In addition, NASA's Deep Space 
Network, used for communications to all of the NASA missions beyond 
Earth Orbit, uses AI scheduling technology.
    While these examples may give you the impression that AI is 
commonplace in space exploration, I assure you that this not the case. 
The above examples represent a sampling of AI success stories on a 
small fraction of the overall set of space missions. Because of the 
high-stakes nature of space exploration, adoption of disruptive 
technologies like AI requires an extensive track record of success as 
well as continuous contact with the critical stakeholders of science, 
operations, and engineering. However, due to both technology advances 
and increased stakeholder understanding of the great promise of AI, 
progress has accelerated dramatically in recent years. For example, 
instruments on the Mars 2020 rover will have unprecedented ability to 
recognize features and retarget to enhance science. Mars 2020 is also 
investigating the use of an onboard re-scheduling capability to best 
use available resources. The Europa Multiple-Flyby mission is studying 
autonomy capabilities needed to achieve science in the presence of 
Jovian radiation induced processor resets.
    In the future, AI will likely have many applications in human 
spaceflight missions where astronaut time is at a premium, as well as 
in robotic missions where the technology may enable missions of 
increasing complexity and autonomy. Past efforts have placed AI in 
critical position for future space exploration. Sustained resources, 
support, and vision are needed for AI to fulfill its vast potential to 
revolutionize space exploration.
    For further information see:

        Autonomous Sciencecraft/Earth Observing One
        S. Chien, R. Sherwood, D. Tran, B. Cichy, G. Rabideau, R. 
        Castano, A. Davies, D. Mandl, S. Frye, B. Trout, S. Shulman, D. 
        Boyer, ``Using Autonomy Flight Software to Improve Science 
        Return on Earth Observing One,'' Journal of Aerospace 
        Computing, Information, & Communication, April 2005, AIAA.

        Earth Observing Sensorweb
        S. Chien, B. Cichy, A. Davies, D. Tran, G. Rabideau, R. 
        Castano, R. Sherwood, D. Mandl, S. Frye, S. Shulman, J. Jones, 
        S. Grosvenor, ``An Autonomous Earth Observing Sensorweb,'' IEEE 
        Intelligent Systems, May-June 2005, pp. 16-24.

        S. Chien, J. Doubleday, D. Mclaren, D. Tran, V. Tanpipat, R. 
        Chitradon, S. Boonya-aroonnet, P. Thanapakpawin, D. Mandl. 
        Monitoring flooding in thailand using earth observing one in a 
        sensorweb. IEEE Journal of Selected Topics in Applied Earth 
        Observations and Remote Sensing. 2013 Apr;6(2):291-7.

        S. Chien, J. Doubleday, D. Mclaren, A. Davies, D. Tran, V. 
        Tanpipat, S. Akaakara, A. Ratanasuwan, D. Mandl. Space-based 
        Sensorweb monitoring of wildfires in Thailand. In Geoscience 
        and Remote Sensing Symposium (IGARSS), 2011 IEEE International 
        2011 Jul 24 (pp. 1906-1909). IEEE.

        AG Davies, S Chien, R Wright, A Miklius, PR Kyle, M Welsh, JB 
        Johnson, D Tran, SR Schaffer, R Sherwood. Sensor web enables 
        rapid response to volcanic activity. EOS, Transactions American 
        Geophysical Union. 2006 Jan 3;87(1):1-5.

        A. G. Davies, S. Chien, J. Doubleday, D. Tran, T. Thordarson, 
        M. Gudmundsson, A. Hoskuldsson, S. Jakobsdottir, R. Wright, D. 
        Mandl, ``Observing Iceland's Eyjafjallajokull 2010 Eruptions 
        with the Autonomous NASA Volcano Sensor Web'', Journal of 
        Geophysical Research--Solid Earth, v. 118, Issue 5, pp. 1936-
        1956, May 2013.

        AEGIS/MER
        TA Estlin, BJ Bornstein, DM Gaines, RC Anderson, DR Thompson, M 
        Burl, R Castano, M Judd. AEGIS automated science targeting for 
        the MER opportunity rover. ACM Transactions on Intelligent 
        Systems and Technology (TIST). 2012 May 1;3(3):50.

        AEGIS/MSL http://www.jpl.nasa.gov/news/news.php?feature=6575

        V-FASTR
        D. R. Thompson, K. L. Wagstaff, W. Brisken, A. T. Deller, W. A. 
        Majid, S. J. Tingay, and R. B. Wayth. ``Detection of fast radio 
        transients with multiple stations: A case study using the Very 
        Long Baseline Array.'' The Astrophysical Journal, 735(2), doi: 
        10.1088/0004-637X/735/2/98, 2011

        Impact of ML component:
        K. L. Wagstaff, B. Tang, D. R. Thompson, S. Khudikyan, J. 
        Wyngaard, A. T. Deller, D. Palaniswamy, S. J. Tingay, and R. B. 
        Wayth. ``A Machine Learning Classifier for Fast Radio Burst 
        Detection at the VLBA.'' Publications of the Astronomical 
        Society of the Pacific, 128:966(084503), 2016.

        Scientific impact:
        S. Burke-Spolaor, C. M. Trott, W. F. Brisken, A. T. Deller, W. 
        A. Majid, D. Palaniswamy, D. R. Thompson, S. J. Tingay, K. L. 
        Wagstaff, and R. B. Wayth. ``Limits on Fast Radio Bursts from 
        Four Years of the V-FASTR Experiment.'' The Astrophysical 
        Journal, 826(2), doi:10.3847/0004-637X/826/2/223, 2016.

        Intermediate Palomar Transient Facility
        F. J. Masci, R. R. Laher, U. D. Rebbapragada, G. B. Doran, A. 
        A. Miller, E. Bellm, M. Kasliwal, E. O. Ofek, J. Surace, D. L. 
        Shupe, C. J. Grillmair, E. Jackson, T. Barlow, L. Yan, Y. Cao, 
        S. B. Cenko, L. J. Storrie-Lombardi, G. Helou, T. A. Prince, 
        and S. R. Kulkarni, The IPAC Image Subtraction and Discovery 
        Pipeline for the intermediate Palomar Transient Factory, Draft 
        manuscript for Publications of the Astronomical Society of the 
        Pacific https://arxiv.org/abs/1608.01733

        A. Waszczak, T. A. Prince, R. Laher, F. Masci, B. Bue, U. 
        Rebbapragada, T. Barlow, J. Surace, G. Helou, S. Kulkarni, 
        Small near-Earth asteroids in the Palomar Transient Factory 
        survey: A real-time streak-detection system, to appear, 
        Publications of the Astronomical Society of the Pacific. 
        https://arxiv.org/pdf/1609.08018v1.pdf

        B.D. Bue, K. L. Wagstaff, U. D. Rebbapragada, D. R. Thompson, 
        and B. Tang. Astronomical Data Triage for Rapid Science Return. 
        Proceedings of the Big Data from Space Conference, 2014.

        ASPEN-RSSC/Rosetta
        S. Chien, G. Rabideau, D. Tran, J. Doubleday. M. Troesch, F. 
        Nespoli, M. Perez Ayucar, M. Costa Sitja, C. Vallat, B. Geiger, 
        N. Altobelli, M. Fernandez, F. Vallejo, R. Andres, M. Kueppers, 
        ``Activity-based Scheduling of Science Campaigns for the 
        Rosetta Orbiter,'' Invited Talk, Proc. International Joint 
        Conference on Artificial Intelligence (IJCAI 2015), Buenos 
        Aires, Argentina. July 2015.

        SPIKE/Hubble
        MD Johnston, G Miller. Spike: Intelligent scheduling of hubble 
        space telescope observations. Intelligent Scheduling. 1994:391-
        422.

        Spike/JWST
        ME Giuliano, R Hawkins, R Rager. A status report on the 
        development of the JWST long range planning system. In Proc. 
        International Workshop on Planning and Scheduling for Space, 
        ESOC, Darmstadt, Germany 2011.

        MAPGEN/MER
        JL Bresina, AK Jonsson, PH Morris, K Rajan . Activity Planning 
        for the Mars Exploration Rovers. In Proc International 
        Conference on Automated Planning and Scheduling 2005 Jun (pp. 
        40-49).

        MEXAR/Mars Express
        A Cesta, G Cortellessa, M Denis, A Donati, S Fratini, A Oddi, N 
        Policella, E Rabenau, J Schulster. Mexar2: AI solves mission 
        planner problems. IEEE Intelligent Systems. 2007 Jul;22(4):12-
        9.

        LASS/LADEE
        JL Bresina. Activity Planning for a Lunar Orbital Mission. In 
        AAAI 2015 Jan 25 (pp. 3887-3895).

        Spitzer Space Telescope
        DS Mittman, R Hawkins. Scheduling Spitzer: The SIRPASS Story, 
        Proc Intl Workshop on Planning and Scheduling for Space, 
        Moffett Field, CA, 2013.

        NI-SAR
        JR Doubleday. Three petabytes or bust: planning science 
        observations for NISAR. In SPIE Asia-Pacific Remote Sensing 
        2016 May 2 (pp. 988105-988105). International Society for 
        Optics and Photonics.

        Radio Constellation Design
        S. Schaffer, A. Branch, S. Chien, S. Broschart, S. Hernandez, 
        K. Belov, J. Lazio, L. Clare, P. Tsao, J. Castillo-Rogez, E. J. 
        Wyatt, Using Operations Scheduling to Optimize Constellation 
        Design, Scheduling and Planning Applications Workshop (Spark), 
        International Conference on Automated Planning and Scheduling, 
        London, UK, June 2016.

        Deep Space Network
        MD Johnston, D Tran, B Arroyo, S Sorensen, P Tay, B Carruth, A 
        Coffman, M Wallace. Automated Scheduling for NASA's Deep Space 
        Network. AI Magazine. 2014 Dec 22;35(4):7-25.

        Manned Program AI
        G Aaseng, Techport: Advanced Caution and Warning System 
        Project, https://techport.nasa.gov/view/32946

        A. Haddock, J. Frank, L. Wang, TechPort: Autonomous Systems and 
        Operations project, https://techport.nasa.gov/view/32946

    Senator Cruz. Thank you, Dr. Chien.
    And thank you, to each of you, for your testimony.
    Let me start with just a broad question to the panel, which 
is, What are the greatest challenges and opportunities you see 
for the continued development of AI?
    Dr. Moore. I do think it's very important that we grow our 
AI workforce quickly. And it's interesting that, in a world 
where we're actually all concerned about making sure there are 
more jobs available, there's such a gap here, where we're so 
short of experts. Frankly, I look at some of the other major 
players around the world in this area, I see that China, India, 
and other countries are really pumping out the computer 
scientists who can form this cohort. So, for me, I would feel 
much more comfortable if we were graduating hundreds of 
thousands of AI experts every year from our universities, 
instead of just thousands.
    Dr. Horvitz. So, let me also complement that work by 
talking about some technical directions. I mentioned human/
computer or human/AI collaboration. And we don't think enough 
about the human-factor angle in AI. It's not all about 
automation. Of course, there'll be some interesting automation. 
We can't have people on Mars, for example, looking at those 
stones and doing the digging. But, in general, there are 
incredible opportunities ahead with codesigning systems so they 
work really well. They're human-aware. They understand human 
attention. They understand how they can complement human 
intellect and what people do uniquely, and do well. 
Understanding how to negotiate, to do a give-and-take, a fluid 
dialogue in contributions between humans and machines. Lots to 
be done there, and that includes this piece with explanation, 
transparency. Many of these answers we get today out of AI 
systems, the best systems we can build are black-box systems 
that are opaque to human beings who need to understand to learn 
how to justify those decisions and how the thinking is done, 
and to understand the reasoning process, itself. Lots of work 
to do there.
    There's another critical direction with thinking through 
opportunities to take some of the software we've done in the 
intellectual cognitive space and enter into the real world of 
physical innovation, to teach systems to work in physical 
spaces. Our robotics today are very, very limited. Even our 
best practices on Mars don't do the kinds of things that people 
can do easily. And there's a coming renaissance in taking some 
of our advances in AI and bringing them into the physical 
space.
    Mr. Brockman. So, I believe that the biggest opportunity we 
have is to continue to move very quickly on the fundamental 
building blocks, on the fundamental technology. And it really 
feels like, today, we're kind of in the vacuum-tube era and 
that the transistor is out there, and that we're building very 
impressive technologies, but that, this is really just the tip 
of the iceberg. And I think that the biggest thing to watch out 
for--I think one of the biggest risks is--that we lose the 
openness that we have. Today, we can have these conversations, 
we can measure how the technology is progressing, and we can 
plan for the future. And I think that we can continue to 
attract the world's best talent by keeping it open.
    Senator Cruz. So, in the early 2000s, I chaired a series of 
hearings at the Federal Trade Commission on barriers to e-
commerce. And I'd be interested in the panel's opinion. Are 
there particular legal or regulatory barriers or other barriers 
to entry that are slowing down or impeding the development of 
AI?
    Dr. Horvitz. One comment is on--I'll make mention--is on 
data. With the growth of AI and the importance of data in AI, 
there has been a growth of a genuine need for innovation with 
privacy to secure the privacy for individuals. At the same 
time, there are massive data assets that aren't easily 
available. We had to negotiate at Microsoft Research to gain 
access to FAA data to help us build new weather maps for the 
country based on thousands of planes in flight as we speak. We 
were helped by the OSTP in getting access to that, but it was 
not necessarily a simple task. But, there are many data sets 
like this, and we'd love to see public-sector data sets, 
especially with privacy-protected, made more available for 
innovation. At the same time, we--while the NIH requires, on 
NIH-funded projects, for data to be released as part of the 
contracts that are made with researchers, it's very difficult 
to have medical data shared as a part of the fulcrum of 
innovation. And so, we need to think through HIPAA, altruistic 
data approaches, where patients donate data, new kinds of 
programs that let us really maintain patient privacy while 
gaining access to large amounts of biomedical data.
    Dr. Moore. There are some other areas, such as intelligent 
braking in cars, where there are some legislative questions 
which might slow us down. For example, it would be tragic if 
some lifesaving technology, which would make cars safer, 
couldn't be released because the legal questions about who is 
responsible got in the way. What I'm talking about here is, if 
I, as a software developer, invent a new collision-avoidance 
system which unambiguously reduces fatalities by a factor of 
three, but occasionally, unfortunately, 1 in 1,000 times, maybe 
there's a disaster, there is a difficult question as to how, 
legislatively, we make sure we're ready for this. So, I can 
imagine a potential impasse between insurance companies, 
policymakers, drivers, and car manufacturers, where no one is 
willing to put lifesaving technology into these systems because 
it's still ambiguous who has the responsibility for what.
    Senator Cruz. So, one final question. General AI has 
generated some significant fears and concerns from scientists 
and innovators, such as Stephen Hawking, Bill Gates, and Elon 
Musk. Stephen Hawking has stated, ``Once humans develop 
artificial intelligence, it would take off on its own and 
redesign itself at an ever-increasing rate. Humans, who are 
limited by slow biological evolution couldn't compete and would 
be superseded.'' And Elon Musk has referred to it as, 
``summoning the demon.'' How concerned should we be about the 
prospects of general AI? Or, to ask the question differently, 
in a nod to Terminator, does anyone know when Skynet goes 
online?
    [Laughter.]
    Mr. Brockman. So, my answer to that is that I think that, 
with artificial intelligence generally, that there are a lot of 
things that we should be careful about and concerned about and 
think about security, safety, and ethics today. And so, I think 
that the kind of general intelligence that people talk about, 
my 90-percent confidence interval on when that kind of 
technology could arrive, is between 10 to 100 years. It's not 
something that we're at all capable of building today. And 
today we know that there are concrete safety problems that we 
can be working on. And so, I think that we should be investing 
in those kinds of questions. And I think that that will help us 
figure out the right answers for the short, medium, and long 
term.
    Dr. Horvitz. So, there has been a lot of hyperbole, as you 
know, stimulated in no small part by Hollywood. Great--these 
are great themes, and they keep us enamored with interesting 
possibilities. At the same time, we don't scoff at those kinds 
of long-term outcomes, and want to seriously reflect and review 
possibilities, push to the limit some of these proposals about 
what's possible, and, in advance, proactively work to thwart 
them, to stay on a healthy, secure path.
    My own sense is, these are very, very long-term issues, but 
that the things we're doing today are actually relevant and 
interesting, in terms of thinking about how AI systems can 
grapple with unknown unknowns, how it could secure systems 
from, for example, modifying themselves, their own objective 
functions, which is one of the concerns that comes up at times. 
In some ways, I am happy to see the growth of interest in the 
long-term future questions, because it raises my confidence 
that we will track closely and do the best we can when it comes 
to harnessing AI for the greatest benefits.
    Dr. Moore. I would just add that, at the moment, everything 
that's going on in the current AI revolution is using AIs which 
are like idiot savants. They are able to search a space that 
we've prescribed really efficiently. And it is a matter for 
future researchers, not something immediate, to imagine these 
kinds of self-aware, self-reasoning systems. Those would be 
really, really important to get right. At the moment, the AIs 
we're building are all to do with immediately answering 
questions about agriculture, safety, people's health. And the 
students who are being drawn into it are being drawn into it 
for these idealistic reasons.
    One thing you will notice--and this is actually under the 
influence of some of the institutions my colleagues have put 
into place--is, many places, such as Carnegie Mellon, are 
actively making ethics and responsibility a central part of the 
curriculum for these AI experts. Because these kids today are 
building the 21st century. We need them to actually understand 
the human condition while they're doing it.
    Dr. Horvitz. Just to get a sense for the kinds of things 
that are going on, this coming spring there's going to be an 
event where we're inviting--or a group is inviting out people 
who are imagining the most fearful--feared long-term AI 
scenarios--call them the Red Team--and we're--then we're 
inviting out the Blue Team to disrupt them in advance, and 
they're going to come together and battle it out.
    Dr. Chien. So, I would like to take this chance to circle 
back to one of your earlier questions and tie that in. You 
asked, What are the areas that we need to work in? I would say 
that one of the key areas that we need to work in is better 
characterization and understanding the performance of AI 
systems. And this is something that we have a lot of interest 
in at NASA, because, in our space missions, we need to, if not 
prove that they're going to actually perform within certain 
bounds, we need to have very strong confidence that they will 
perform in those bounds, because these are very high-stakes 
missions. A lot of the applications that people have talked 
about--healthcare, self-driving cars--these also are high-
stakes missions. Before AI can control our critical 
infrastructure, we need to be confident that it will perform as 
we want it to perform. And I think this has been identified 
before in the OSTP study as a key area of research.
    Senator Cruz. Thank you very much.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Again, thank you, to our witnesses.
    And you're right, Dr. Chien, we have to make sure this 
performs. I've been very involved in autonomous vehicles and 
the research that's going on there. And my concern is that we 
have to make sure the technology gets it right with as few 
errors as possible, because there's already limited consumer 
acceptance for letting some machine drive your automobile 
through a city street. There are all sorts of benefits, which 
we've talked about, but limited acceptance now. And if you had 
some sort of catastrophic event in a crash--and there will be 
some crashes, certainly--it could very well set back the 
industry dramatically, because of the consumer pushback and the 
public pushback. So, we have to do this in thoughtful ways, 
which is why, Dr. Moore, some of the regulatory aspects of 
this, before you put vehicles on the road, to make sure there's 
proper safety in place, or we've thought through how we ensure 
that, is incredibly important.
    My concern with all of this has always been that there's a 
disconnect between the speed we're on with public policy versus 
technology. Right now, we are at a exponential rate when it 
comes to technology. And even though we have estimates of AI 
reaching a singularity of some sort from 10 to 100 years--we 
don't know when that is, although things seem to operate a lot 
quicker than we anticipate. I believe that we didn't think we 
could beat the expert player in Go for a least a decade, and I 
think that just occurred a few months ago. So we can't fully 
anticipate what's happening.
    I don't know the speed it will go at, but it will probably 
be quicker than we anticipate. The one constant in all of this 
is, when it comes to public policy, that operates at a constant 
speed. It's called ``snail speed.'' So, it is very slow and 
cumbersome. If we are not doing it now, we have no chance of 
trying to catch up to what's happening with the policies, going 
forward.
    I certainly appreciate the comments from several of you 
that we have to be thinking about this stuff now, in a very 
thoughtful, comprehensive way, because if we wait, it's going 
to be too late.
    I want to switch gears to the positive aspects that we want 
to continue to move AI forward. You've mentioned some of the 
challenges that we have: the gaps that we have to fill. I'd 
like your perspective on where the Federal Government's role 
is, in terms of research. Mr. Brockman, you mentioned in your 
testimony some subfields that need work and some other areas. 
But, I'd like to ask each of you.
    Obviously, private industry is already invested. In my 
opening comments, I mentioned eight and a half billion dollars 
in 2015. That number is going to continue to go up. So, private 
industry is doing an awful lot of this work, including basic 
research, which, traditionally, has been an area where the 
Federal Government has supported academic research through 
grants, but some of that basic research is being done by 
private industry, as well. So, that's occurring. Not 
necessarily in other areas. But, are there gaps where you 
believe the Federal Government--there isn't going to be a 
private industry group out there investing in some of these 
gaps that we need to figure out. The Federal involvement will 
be critical to investing in those kinds of research programs, 
first to make sure that AI moves forward in a societal 
beneficial way, but also to understand the time constraints 
associated with the competition that we face from the Chinese 
and Koreans and other folks.
    Dr. Horvitz. So, one comment I'll make is that, beyond 
industry, looking at private sector and public sector, 
academia, there are groups coming together, so I'll just make a 
few comments about the new Partnership on AI. The full name is 
Partnership on AI to Benefit People and Society. And this is a 
nonprofit organization that was formed by Facebook and Amazon, 
Google, IBM, and Microsoft coming together, working with 
nonprofit teams to--with Balance Board and so on, focused 
around sets of these long-term challenges and shorter-term 
challenges, with safety-critical systems, ethics, and society, 
notions of how people and machines work together, and even 
working to stimulate new kinds of challenges and catalyzing new 
efforts in AI that might not be done naturally by industry. 
That's one direction. I'm happy to answer questions about that 
effort, which is ongoing.
    Another couple of comments is that there are places and 
opportunities where we don't necessarily see industry making 
deep investments. I would call these application areas that are 
rich and ripe for AI innovation. How can we solve homelessness, 
or address homelessness, addiction, related problems in the 
social science sphere and social challenges sphere? There are 
some teams in academia right now working hard at applications 
in this space. Recently at USC, the engineering department 
joined with the social work department. The social work 
department, looking at innovative applications of AI and 
optimization and decisionmaking to new kinds of policies that 
can address these long-term, hard, insidious problems.
    Dr. Moore. Very good. I could not agree more with what 
you're describing.
    Another example of this phenomenon is, I have two brilliant 
faculty in the Human-Computer Interaction Institute at Carnegie 
Mellon who are looking at AI to help people make prosthetic 
hands easily for folks who have lost their limbs. And, they're 
struggling to find $50,000 or $100,000 here or there to build 
these things. At the same time, frankly, my friends from 
industry will be offering these same faculty $2 million or $3 
million startup packages to move into industry. So, I do want 
to make sure that the folks in academia who are building these 
things are successful.
    Another example is, in the defense world, tools for helping 
our warfighters or other folks domestically who are putting 
themselves into danger to save other people. There is so much 
opportunity to use sensing, robotics, and artificial 
intelligence planning to save lives there. That's an area where 
it will take a very long time to grow naturally in the private 
sector. And we have faculty, and especially students, champing 
at the bit to work on these kinds of problems.
    There's another area, which may sound too theoretical, but 
I've got to tell you about it, because it's so exciting. The 
big Internet companies' big search engines are powered by 
things called knowledge graphs, the underlying set of facts 
about the world which you can chain together to make 
inferences. A large group of us from academia and industry, and 
from some government agencies, want to work to create a public, 
open, large knowledge graph, which will permit small AI 
entrepreneurs to tap into the same kind of knowledge of the 
world that the big Internet companies have at the moment. So, 
in a manner equivalent to how lots of individual networking 
systems came together to form the TCIP protocol for the 
Internet, there's something we can do there.
    Finally--and this one is going to sound really abstract--
the really good ideas at the moment in machine learning and 
deep learning came out of mathematics and statistics. Without 
the fundamental work going on by the mathematicians and 
statisticians around the world, we wouldn't be where we are. 
So, statisticians, who are often the heroes in AI, need help to 
progress their field forward as well.
    Mr. Brockman. I have three suggestions. The first of these 
is basic research. And you mentioned that basic research is 
happening in industry. But, I think that we just cannot do too 
much of it, in that we really are at the tip of the iceberg 
here, and I think that we're just going to find so much value. 
And that's why the big companies are investing, because they 
realize that, as many dollars that are being made today, that 
there's 100X or maybe more increase in the future. And I think 
that it's really important that the technology is not owned by 
just one or a few big companies. I think it's really important 
that the benefits and the technology are owned by us all, as 
Americans and as the world. And so, I think that the government 
can really help to ensure that this technology is democratized 
and that we move faster.
    The second is measurement and contests. I think that, for 
the reasons I mentioned earlier, that it's really important 
that we track how it's progressing so we can have a good 
debate. And I think that the government has actually been 
extremely successful in the past with investing in contests. 
And so, I think you're creating new measurements or supporting 
people in industry and academia who are doing the same.
    And then the third is safety, security, ethics. I think 
that's going to take everyone. And I think that we all need to 
work together. I think that that's going to require making sure 
that there is funding available for people who want to be 
thinking about these issues. And I think that's going to feed 
back into all of the questions of--that everyone's been raising 
here today.
    Senator Peters. Mr. Brockman, I think I saw that you 
thought philosophers should be part of that. So--in addition to 
technologists--I appreciated that. As someone with a Master's 
in Philosophy, that's good. So, I appreciate that.
    Mr. Brockman. It's going to take everyone.
    Senator Peters. Dr. Chien.
    Dr. Chien. Yes. So, I would echo some of the statements 
that the other panelists made. They've identified a lot of 
great topics for the--that really require government--a 
government role. One that I would emphasize is very basic 
science questions that relate to NASA's mission. So, how did 
the universe form? How did the solar system form? How did life 
come into existence on this planet and other planets? These are 
actually fundamental questions of science and exploration that 
we really need to leverage AI to go and explore all these nooks 
and crannies in the solar system. And if you really want to 
think far out, in order to embark on an interstellar mission to 
see if there's extant life at other solar systems. These are 
different questions that there's no clear financial motive, so 
there's a clear role for the government, to be able to answer 
these kinds of basic science questions.
    Mr. Brockman. And if I could just add one last thing. So, I 
believe that the statistic for the amount of government 
unclassified dollars that went into AI R&D in 2015 was $1.1 
billion. And that--as has been mentioned several times--that 
industry investment is $8 billion. And if this is a technology 
that's really going to be affecting every American in such a 
fundamental way, I think that that disparity, I think, is going 
to be something that we should act to correct.
    Senator Peters. Great. Thank you for your answers. 
Appreciate it.
    Senator Cruz. Thank you.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you.
    Dr. Moore, you talked mostly about the unambiguously 
positive potential applications of AI. And we've sort of 
briefly touched upon the terrifying science fiction 
possibilities, which I think we're, you know, joking aside, 
keeping an eyeball on, but that is from 10 to 100 years from 
now. What I'm interested in is, as Senator Peters mentioned, 
What are the tough, thorny, short-term public policy and 
ethical challenges that we're facing right now? Not the 
possibility that machines will overtake us. Not even the sort 
of question of long-term unemployment. But, I think about 
doctrine of war, I think about blackbox algorithms that help 
with policing, or social work or healthcare. And I'm wondering 
if you could, maybe just going down the line, starting with Dr. 
Horvitz, give me an example of a short-term ethical, moral, 
public policy quandary that is upon us now.
    Dr. Horvitz. Well, for one, I think that we'll be seeing 
interesting legal tests and precedents set up that define new 
kinds of frameworks for dealing with things like liability. Who 
or what is responsible? Manufacturers? The drivers of cars? The 
people who have signed various documents when cars were 
purchased? I think that we haven't--things are unsettled in 
that space, and we'll be seeing lots of interesting work there. 
And there are some very interesting focused workshops and 
conferences where people ask these questions.
    When it comes to using various AI technologies, going from 
machine learning for building classifiers that do predictions 
and that are used to reason about interesting problems like 
criminal justice challenges. Should this person charged with a 
crime have to stay in jail in advance of their court date, or 
can they get out early if they can't pay their bail? They're 
the systems out there that have been used and critiqued, and 
it's pretty clear that there is opportunity for looking very 
carefully at systems that are used in high-stakes situations 
like this to ensure that there are not implicit biases in those 
systems, to assure that there's accountability and fairness. 
And----
    Senator Schatz. So, long as it's not a government contract, 
where you're working with a subcontractor, which says, ``Our 
algorithm is proprietary. You're not allowed to--we just spit 
out our recommendation. That's what you pay us for.''
    Dr. Horvitz. Well, that's exactly where I'm going. That's 
exactly where I'm going. So, the question would be, ``What are 
best practices?'' for example, and do we need them when it 
comes to these kinds of applications? For example, potentially 
with protecting privacy, should datasets used in these 
applications be disclosed and disclosable for study and 
investigation and interrogation by people who want to make sure 
that they're fair and that there can be trust in these systems? 
The basic idea here is that many of our datasets have been 
collected in advance, with assumptions we may not deeply 
understand, and we don't want our machine-learned applications 
used in high-stakes applications to be amplifying cultural 
biases or any kind of biases that was part of the collection 
process.
    Senator Schatz. Right.
    Why don't we go, very quickly, because I have one final 
question, but I'd be interested to hear each one of you quickly 
answer this question.
    Dr. Moore. Very briefly. This AI technology is available to 
the bad guys, too. It is possible to cheaply set up homemade 
drones in a bad way. A repressive regime can now use face 
recognition in a way that they couldn't last year. We need to 
actually stay ahead. We can't just sit where we are.
    Mr. Brockman. So, I'd like to actually build on the bias 
answer and just say that one thing that concerns me is the lack 
of diversity in the field, especially as we try to think about, 
How can we ensure that these systems are going to do the right 
things for all of us? And if you look at this panel, we're 
actually, I think, pretty representative of what the current 
field of AI looks like. And I think that we, the government and 
industry and academia, need to work together in order to 
correct that.
    Dr. Chien. I would echo Eric's comments on--we need to 
further understand how to characterize the performance of AI 
systems. Oddly enough, there are analogues, from social science 
to space science, where we work very heavily. We need to show 
that the datasets collected by our (NASA) autonomous systems 
are representative samplings of what you would get if you were 
not smartly collecting the data. Otherwise, you'll actually 
come up with different scientific theories and mechanisms for 
explaining things. These same kinds of techniques apply to 
making sure that your algorithms are not biased in performing 
as you wish.
    Senator Schatz. So, let me just wrap up with this. And I'll 
ask a question for the record. My question is sort of 
mechanical. Dr. Horvitz and many of the other testifiers have 
made at least a brief reference to the ethical quandaries that 
we are facing, a Blue Team/Red Team. I noted, Mr. Brockman, you 
made reference to safety, security, and ethics. And it's--it 
occurs to me that, as this accelerates so fast, that, as you do 
your conferences, as you have your conversations, you may not 
be--you may not have fully articulated what kind of system 
among the AI community you really want to wrestle with these 
questions, whether it's a public-private partnership, whether 
it's led by the Federal Government or convened by the Federal 
Government, but primarily driven by private-sector actors. I 
don't know. But, it occurs to me, lots of good thinking is 
occurring. It also occurs to me that maybe it hasn't been 
fleshed out from a process standpoint. And we can't take it for 
granted that it's all going to happen organically. But, I will 
take that question for the record, in the interest of time.
    Thank you.
    Senator Cruz. Thank you.
    Chairman Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Thank you, Mr. Chairman, for convening 
today's Subcommittee hearing on artificial intelligence. This 
topic complements our last full committee hearing, which 
explored another nascent technological field: augmented 
reality.
    I'm excited by this topic, because AI has the potential to 
catapult the United States economy and competitiveness in both 
the near-and the long-term future. AI presents promising 
applications in the areas of healthcare, transportation, and 
agriculture, among others. And I want to thank our witnesses 
for sharing and highlighting some of those applications today.
    The recent report and strategy on AI released by the White 
House Office of Science and Technology Policy provide Congress 
with important considerations to weigh as we think about what 
the appropriate role of government is in this promising field 
so that we ensure that the United States remains the preeminent 
place for AI in the global economy. And so, I appreciate, 
again, the witnesses sharing your insights about what the 
state-of-the-art is today and where the Nation's leading 
experts see the applications, moving forward.
    I wanted to direct a question, Dr. Horvitz, to you. You 
mentioned, in your testimony, that new kinds of automation 
present new attack surfaces for cyberattacks. And I wonder if 
maybe you could elaborate on what some of those new 
cybersecurity vulnerabilities might be.
    Dr. Horvitz. Yes. Thanks for the interesting question and 
framing.
    The systems we build that are doing sophisticated tasks in 
the world often are assembled out of multiple modules or 
components that have to talk to one another, ending, often, in 
cyberphysical or astrophysical activity or affecters, like car 
steering wheels and braking and so on. Every single one of 
those interfaces presents an opportunity to an attacker to 
intervene and influence the behavior of a system.
    There are also whole new categories of attack. I would be--
would have been surprised to learn, 15 years ago, that we 
were--that the community was talking now about machine-learning 
attacks. What's a machine-learning attack? The careful 
injection into a learning system, in a sleuthy manner, 
potentially, of data that will tend to build a classifier that 
will do the wrong thing in certain cases. So, that just gives 
you a sense or a taste for the very different kinds of 
opportunities that are being presented by the systems we're 
building now.
    We often think about security in classical ways, with 
verification models and encryption and so on. And these 
techniques often will apply, but we have to be very careful, as 
we build these systems, that we're taking--that we're covering 
all ground and we're thinking through possibilities.
    The Chairman. And, on the flip side of that, how can the 
use of machine learning enhance security analysts' ability to 
catch malicious hackers?
    Dr. Horvitz. Yes, it's a great follow-on question, because 
it's a yes/yes. I mean, there's--look, I mean, we have to be 
cautious, because the--human beings and humans plus machines 
can be very creative in how they attack, so there's a long tail 
of possibilities we have to, sort of, account for. But, there 
are some very, very promising angles with the use of artificial 
intelligence and machine learning to detect anomalous patterns 
of various kinds, with low false-positive rates. That's one of 
the goals, is to do this well, where you don't call everything 
strange, because people are always doing different things that 
are safe, but that seem to be different over time and might 
seem like a fraudulent event, for example.
    So, I think there's a lot of promise. I know that--I'm very 
excited about some recent projects that I reviewed at Microsoft 
Research in this space. So, I think it's an exciting direction, 
indeed.
    The Chairman. Yes.
    Dr. Moore. Speaking as someone who was at an Internet 
search engine before I was at Carnegie Mellon, this is an area 
where I would claim that Internet search companies are well 
ahead of what you're seeing happening in the public sector. 
There actually are some very good technologies out there for 
doing machine learning versus machine-learning warfare. So, 
it's an exciting area which I would like to see grow.
    On the bright side, a recent DARPA challenge was about 
using artificial intelligence to discover vulnerabilities 
autonomously and using machine learning in other systems, which 
sounds like a kind of frightening thing. But, (a) it is 
actually important for our national defense that we have these 
capabilities; and (b) it is one of the ways in which we can 
keep ourselves safe, by having our own AIs trying to break into 
our own systems. So, this is another capability which just 
wasn't there 2 years ago. Carnegie Mellon, University of 
Michigan, and plenty other major computer science universities 
are heavily involved now in using AIs to both try to break and 
warn us about breakages in our own computer security systems.
    The Chairman. Mr. Moore, just very quickly here because I'm 
out of time, but could you build a little bit on your written 
testimony about how the United States can win the AI talent 
war? In other words, what are the best ways to sustain enough 
AI talent at universities to conduct basic research and drive 
innovation while also filling what is a growing demand for AI 
jobs in the private sector?
    Dr. Moore. I think this begins in middle school. The U.S. 
Government can really help here if we just help kids in middle 
school understand that one of the most important and 
interesting things they can be doing with their lives right now 
is to learn mathematics so that they can be building these 
kinds of robots and systems in the future. This is something 
which needs training. It's not that you need to be a genius. 
You need to be trained in math from about the age of 13 or 14 
onwards, understand that that is even cooler as a career move 
than going to work in Hollywood. Once we've got the kids' minds 
in the right place, we can bring them through the university 
system, scale that up, and then we'll be in good shape.
    What I don't want to do is keep us in our current 
situation, where the talent crunch is being dealt with by this 
massive bidding war for this small amount of talent. Because 
that's not sustainable when the other continents are doing such 
a good job of producing AI experts.
    Mr. Brockman. I think one thing that's really important is 
that we can continue to attract the best AI researchers in the 
world by having an open basic research community that just 
draws everyone in. It has been working. And I think that we can 
grow that and strengthen that community.
    The Chairman. Thank you.
    Thank you, Mr. Chairman.
    Senator Cruz. Thank you, Chairman Thune.
    Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman. And thank you for 
holding this hearing today. Very timely.
    Before I came to the Senate, I used to have a legitimate 
day job. I was in the technology sector for about a dozen 
years. And our company had several patents for AI design. We 
won a national award for AI innovation. That was back in the 
early 2000s. So, we're not talking about something that's new. 
It has been around for quite some time.
    In the Senate, we often talk about what we need to do to 
ensure the U.S. maintains leadership, looking at global 
competitiveness and innovation technology, whether it's 
broadband, smart cities, medical research. So, I'd like to 
start my questioning with Mr. Brockman.
    Could you expand your testimony about what other countries 
are doing, in terms of encouraging AI? And a follow-on there 
would be, What do you see some of the competitive disadvantages 
that we face right now in our country as it relates to ensuring 
that we be--maintain global leadership in this important area?
    Mr. Brockman. So, in other countries, I think there's a 
mix. And so for example, you see companies like China's Baidu, 
who, you know, want to scale up their investment in this field. 
And the way that they've been doing it is that they've actually 
opened a U.S.-based research institution, and have joined our 
research community and are publishing and kind of following our 
lead. With South Korea, I think that sort of around the same 
time as the Alpha-Go match, that they announced that they were 
going to make this billion-dollar investment into AI. And 
Canada recently has been talking about that they're starting to 
increase their national funding. And so that's the flavor that 
you're seeing--both companies and the governments stepping up 
their investments and trying to make research breakthroughts--
because I think everyone sees there's so much activity 
happening.
    And, I'm sorry, I actually missed the second part of the 
question.
    Senator Daines. Well, just looking at--what do you see as 
some of the headwinds relates to create competitive 
disadvantage for our country?
    Mr. Brockman. I see. I think that the thing we should be 
aware of--and so, there's a stat mentioned about the number of 
Chinese AI papers that are published. And I think that that's 
actually a true fact, but it's not necessarily the most 
important fact. The most important fact is, Where do the 
fundamental breakthroughs come from? Because the thing that 
happens is, if you are the one who creates the underlying 
technology, it's like discovering electricity. You're the one 
who understands everything that went into that, and the papers 
that get published those are in your language. You really get 
to set the culture for how people build on top of it because 
you're probably the one who published the underlying code that 
people are using. And so, I think that the thing that we need 
to watch is the question of--for the actual fundamental 
advances, the capabilities that we just did not have before, 
but that we have now, where do those come from? And, as long as 
that's us, then I think we're in really good shape. And so, I 
think that we need to continue to make sure that that's the 
case.
    Senator Daines. I want to go back to the point that was 
brought up earlier on the cyberthreat. In 28 years in the 
private sector, I never received a letter from the human 
resource department that said that my information had been 
hacked, until I became a Federal employee, was elected to the 
U.S. Congress. And I, like millions of other Federal employees, 
got a letter from OPM talking about the fact that my 
information had been hacked. I spend a lot of time working and 
chatting with some of these very innovative, smaller tech 
companies that are doing some amazing things as it relates to 
advancing at the speed of business, relates to protecting our 
assets. I am concerned--and you mentioned the fact that the 
Federal Government can lag, is not always leading in that area. 
And I know it's frustrating, because we have solutions here. We 
can't sometimes penetrate our own firewall, figuratively 
speaking, as relates to trying to get--front here, to get our 
government to move at the speed of business. Because I know 
when we were--when I was in the cloud computing business, we 
always--you wanted to make sure you were never on the front 
page of The Wall Street Journal because of a hack. And what 
that does to valuation of companies has been very obvious in 
the last few years.
    So, what do we need to do to ensure that the best 
technology, as it's moving so fast right now, is in the hands 
of our best people who are in the Federal Government? This is 
not a critique on the people that work in the Federal 
Government. This is oftentimes the barriers we look up here to 
ensure that we're protecting our national assets. Who'd like to 
answer that one?
    Mr. Brockman. So--if I may--so, I've actually been 
extremely impressed with the work that the USDS and OSTP have 
been doing to solve problems like this. I think it really 
starts with getting the best technologists in the door and 
then, secondly, giving them the power and empowering them to 
make changes within the Federal Government. And so, I think 
that it really starts with the people, making sure that we're 
attracting them and making sure that the structures within 
government exist. And I think that, as long as there's an 
attitude that's receptive within the agencies or wherever you 
want to upgrade, I think that that's the best way to get this 
to happen.
    Dr. Chien. I'd like to jump in here, also. I think one of 
the key things is--for the government to be at the forefront, 
or at least participating in the forefront of technology, there 
has to be an active interchange in what I would call a vibrant 
ecosystem that includes multiple kinds of institutions. And I'm 
very happy to say, in the AI and space arena, there's a large 
amount of interplay between the commercial sector, between the 
government sector, between small companies. It seems every week 
there's another company being started up to do real time space 
imaging of the Earth for business intelligence. I think that 
all of this is indicative that there's a good structure with 
this interchange of information. And I think that's the key to 
making sure that the government stays in the right location and 
able to understand and be smart in how it uses this technology.
    Senator Daines. All right. Thank you. I'm out of time.
    Thank you, Mr. Chairman.
    Senator Cruz. Thank you, Senator Daines.
    I'd like to thank each of our witnesses for coming to this 
hearing, which I think was informative and productive and will 
be just the beginning of what I expect to be an ongoing 
conversation about how to deal with both the challenges and 
opportunities that artificial intelligence presents.
    The hearing record will remain open for 2 weeks. During 
this time, Senators are asked to submit any questions they 
might have for the record. And, upon receipt, the witnesses are 
requested to submit their written answers to the Committee as 
soon as possible.
    Thank you, again, to the witnesses.
    And this hearing is adjourned.
    [Whereupon, at 3:57 p.m., the hearing was adjourned.]

                            A P P E N D I X

                                                  November 30, 2016

Hon. Ted Cruz, Chairman,
Hon. Gary Peters, Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Subcommittee on Space, Science, and Competitiveness,
Washington, DC.

     RE: Hearing on ``The Dawn of Artificial Intelligence''

Dear Chairman Cruz and Ranking Member Peters:

    We write to you regarding the upcoming hearing on ``The Dawn of 
Artificial Intelligence.'' \1\ We appreciate your interest in this 
topic. Artificial Intelligence implicates a wide range of economic, 
social, and political issues in the United States. As an organization 
now focused on the impact of Artificial Intelligence on American 
society, we submit this statement and ask that it be entered into the 
hearing record.
---------------------------------------------------------------------------
    \1\ U.S. Senate Commerce, Science and Transportation Committee, 
Subcommittee on Space, Science, and Competitiveness, ``The Dawn of 
Artificial Intelligence,'' (Nov. 30, 2016), http://
www.commerce.senate.gov/public/index.cfm/hearings?ID=042DC718-9250-
44C0-9BFE-E0371AF
AEBAB
---------------------------------------------------------------------------
    The Electronic Privacy Information Center (``EPIC'') is a public 
interest research center established more than twenty years ago to 
focus public attention on emerging civil liberties issues. In recent 
years, EPIC has opposed government use of ``risk-based'' profiling,\2\ 
brought attention to the use of proprietary techniques for criminal 
justice determinations, and litigated several cases on the front lines 
of AI. In 2014, EPIC sued the U.S. Customs and Border Protection under 
the Freedom of Information Act (``FOIA'') for documents about the use 
of secret, tools to assign ``risk assessments'' to U.S. citizens \3\ 
EPIC also sued the Department of Homeland Security under the FPOA 
seeking documents related to a program that assesses ``physiological 
and behavioral signals'' to determine the probability that an 
individual might commit a crime.\4\ Recently, EPIC appealed a Federal 
Aviation Administration final order for failing to establish privacy 
rules for commercial drones.\5\
---------------------------------------------------------------------------
    \2\ EPIC et al., Comments Urging the Department of Homeland 
Security To (A) Suspend the ``Automated Targeting System'' As Applied 
To Individuals, Or In the Alternative, (B) Fully Apply All Privacy Act 
Safeguards To Any Person Subject To the Automated Targeting System 
(Dec. 4, 2006), available at http://epic.org/privacy/pdf/
ats_comments.pdf; EPIC, Comments on Automated Targeting System Notice 
of Privacy Act System of Records and Notice of Proposed Rulemaking, 
Docket Nos. DHS-2007-0042 and DHS-2007-0043 (Sept. 5, 2007), available 
at http://epic.org/privacy/travel/ats/epic_090507.pdf. See also, 
Automated Targeting System, EPIC, https://epic.org/privacy/travel/ats/.
    \3\ EPIC, EPIC v. CBP (Analytical Framework for Intelligence), 
https://epic.org/foia/dhs/cbp/afi/
    \4\ EPIC, EPIC v. DHS--FAST Program, https://epic.org/foia/dhs/
fast/. See also the film Minority Report (2002)
    \5\ EPIC, EPIC v. FAA, https://epic.org/privacy/litigation/apa/faa/
drones/.
---------------------------------------------------------------------------
    EPIC has come to the conclusion that one of the primary public 
policy goals for AI must be ``Algorithmic Transparency.'' \6\
---------------------------------------------------------------------------
    \6\ EPIC, Algorithmic Transparency, https://epic.org/algorithmic-
transparency/ (last visited Nov. 29, 2016). The web page contains an 
extensive collection of articles and commentaries by members of the 
EPIC Advisory Board, leading experts in law, technology, and public 
policy. More information about the EPIC Advisory Board is available at 
https://www.epic.org/epic/advisory_board.html.
---------------------------------------------------------------------------
The Challenge of AI
    There is understandable enthusiasm about new techniques that 
promise medical breakthroughs, more efficient services, and new 
scientific outcomes. But there is also reason for caution. Computer 
scientist Joseph Weizenbaum famously illustrated the limitations of AI 
in the 1960s with the development of the Eliza program. The program 
extracted key phrases and mimicked human dialogue in the manner of non-
directional psychotherapy. The user might enter, ``I do not feel well 
today,'' to which the program would respond, ``Why do you not feel well 
today?'' Weizenbaum later argued in Computer Power and Human Reason 
that computers would likely gain enormous computational power but 
should not replace people because they lack such human qualities and 
compassion and wisdom.\7\
---------------------------------------------------------------------------
    \7\ Joseph Weizenbaum, Computer Power and Human Reason: From 
Judgment to Calculation (1976).
---------------------------------------------------------------------------
    We face a similar reality today.
The Need for Algorithmic Transparency
    Democratic governance is built on principles of procedural fairness 
and transparency. And accountability is key to decision making. We must 
know the basis of decisions, whether right or wrong. But as decisions 
are automated, and we increasingly delegate decisionmaking to 
techniques we do not fully understand, processes become more opaque and 
less accountable. It is therefore imperative that algorithmic process 
be open, provable, and accountable. Arguments that algorithmic 
transparency is impossible or ``too complex'' are not reassuring. We 
must commit to this goal.
    It is becoming increasingly clear that Congress must regulate AI to 
ensure accountability and transparency:

  <bullet> Algorithms are often used to make adverse decisions about 
        people. Algorithms deny people educational opportunities, 
        employment, housing, insurance, and credit.\8\ Many of these 
        decisions are entirely opaque, leaving individuals to wonder 
        whether the decisions were accurate, fair, or even about them.
---------------------------------------------------------------------------
    \8\ Danielle Keats Citron & Frank Pasquale, The Scored Society: Due 
Process for Automated Predictions, 89 Wash. L. Rev. 1 (2014).

  <bullet> Secret algorithms are deployed in the criminal justice 
        system to assess forensic evidence, determine sentences, to 
        even decide guilt or innocence.\9\ Several states use 
        proprietary commercial systems, not subject to open government 
        laws, to determine guilt or innocence. The Model Penal Code 
        recommends the implementation of recidivism-based actuarial 
        instruments in sentencing guidelines.\10\ But these systems, 
        which defendants have no way to challenge are racially biased, 
        unaccountable, and unreliable for forecasting violent 
        crime.\11\
---------------------------------------------------------------------------
    \9\ EPIC, Algorithms in the Criminal Justice System, https://
epic.org/algorithmic-transparency/crim-justice/ (last visited Nov. 29, 
2016).
    \10\ Model Penal Code: Sentencing Sec. 6B.09 (Am. Law. Inst., 
Tentative Draft No. 2, 2011).
    \11\ See Julia Angwin et al., Machine Bias, ProPublica (May 23, 
2016), https://www.propublica.org/article/machine-bias-risk-
assessments-in-criminal-sentencing.

  <bullet> Algorithms are used for social control. China's Communist 
        Party is deploying a ``social credit'' system that assigns to 
        each person government-determined favorability rating. 
        ``Infractions such as fare cheating, jaywalking, and violating 
        family-planning rules'' would affect a person's rating.\12\ Low 
        ratings are also assigned to those who frequent disfavored 
        websites or socialize with others who have low ratings. 
        Citizens with low ratings will have trouble getting loans or 
        government services. Citizens with high rating, assigned by the 
        government, receive preferential treatment across a wide range 
        of programs and activities.
---------------------------------------------------------------------------
    \12\ Josh Chin & Gillian Wong, China's New Tool for Social Control: 
A Credit Rating for Everything, Wall Street J., Nov. 28, 2016, http://
www.wsj.com/articles/chinas-new-tool-for-social-control-a-credit-
rating-for-everything-1480351590

  <bullet> In the United States, U.S. Customs and Border Protection has 
        used secret analytic tools to assign ``risk assessments'' to 
        U.S. travelers.\13\ These risk assessments, assigned by the 
        U.S. Government to U.S. citizens, raise fundamental questions 
        about government accountability, due process, and fairness. 
        They may also be taking us closer to the Chinese system of 
        social control through AI.
---------------------------------------------------------------------------
    \13\ EPIC, EPIC v. CBP (Analytical Framework for Intelligence), 
https://epic.org/foia/dhs/cbp/afi/ (last visited Nov. 29, 2016).

    EPIC believes that ``Algorithmic Transparency'' must be a 
fundamental principle for all AI-related work.\14\ The phrase has both 
literal and figurative dimensions. In the literal sense, it is often 
necessary to determine the precise factors that contribute to a 
decision. If, for example, a government agency considers a factor such 
as race, gender, or religion to produce an adverse decision, then the 
decision-making process should be subject to scrutiny and the relevant 
factors identified.
---------------------------------------------------------------------------
    \14\ EPIC, At UNESCO, Rotenberg Argues for Algorithmic Transparency 
(Dec. 8, 2015), https://epic.org/2015/12/at-unesco-epics-rotenberg-
argu.html.
---------------------------------------------------------------------------
    Some have argued that algorithmic transparency is simply 
impossible, given the complexity and fluidity of modern processes. But 
if that is true, there must be some way to recapture the purpose of 
transparency without simply relying on testing inputs and outputs. We 
have seen recently that it is almost trivial to design programs that 
evade testing.\15\
---------------------------------------------------------------------------
    \15\ See Jack Ewing, In '06 Slide Show, a Lesson in How VW Could 
Cheat, N.Y. Times, Apr. 27, 2016, at A1.
---------------------------------------------------------------------------
    In the formulation of European data protection law, which follows 
from the U.S. Privacy Act of 1974, individuals have a right to access 
``the logic of the processing'' concerning their personal 
information.\16\ That principle is reflected in the transparency of the 
FICO score, which for many years remained a black box for consumers, 
making determinations about credit worthiness without any information 
provided to the customers about how to improve the score.\17\
---------------------------------------------------------------------------
    \16\ Directive 95/46/EC--The Data Protection Directive, art 15 (1), 
1995, http://www.data
protection.ie/docs/EU-Directive-95-4-9EC-Chapter-2/93.htm.
    \17\ See Hadley Malcom, Banks Compete on Free Credit Score Offers, 
USA Today, Jan. 25, 2015, http://www.usatoday.com/story/money/2015/01/
25/banks-free-credit-scores/22011803/.
---------------------------------------------------------------------------
    Building on this core belief in algorithmic transparency, EPIC has 
urged public attention to four related principles to establish 
accountability for AI systems:

  <bullet> ``Stop Discrimination by Computer''

  <bullet> ``End Secret Profiling''

  <bullet> ``Open the Code''

  <bullet> ``Bayesian Determinations are not Justice''

    The phrases are slogans, but they are also intended to provoke a 
policy debate and could provide the starting point for public policy 
for AI. And we would encourage you to consider how these themes could 
help frame future work by the Committee.
Amending Asimov's Laws of Robotics
    In 1942, Isaac Asimov introduced the ``Three Laws of Robotics'':

  1.  A robot may not injure a human being or, through inaction, allow 
        a human being to come to harm.

  2.  A robot must obey the orders given it by human beings except 
        where such orders would conflict with the First Law.

  3.  A robot must protect its own existence as long as such protection 
        does not conflict with the First or Second Laws.\18\
---------------------------------------------------------------------------
    \18\ Isaac Asimov, Runaround, Astounding Sci. Fiction, Mar. 1942, 
at 94.

    Asimov's Rules of Robotics remain a staple of science fiction and 
ethical discourse.\19\ But they also emerged in a time when the focus 
was on the physical ability of robots. In our present world, we have 
become increasingly aware that it is the accountability of autonomous 
devices that require the greater emphasis. For example, in seeking to 
establish privacy safeguards prior to the deployment of commercial 
drones in the United States,\20\ EPIC became aware that drones would 
have an unprecedented ability to track and monitor individuals in 
physical space while remaining almost entirely anonymous to humans. 
Even the registration requirements established by the FAA would be of 
little practical benefit to an individual confronted by a drone in 
physical space.\21\ Does the drone belong to a hobbyist, a criminal, or 
the police? Without basic identification information, it would be 
impossible to make this determination, even as the drone was able to 
determine the person's identity from a cell phone ID, facial 
recognition, speech recognition, or gait.\22\
---------------------------------------------------------------------------
    \19\ See, e.g., Michael Idato, Westworld's Producers Talk 
Artificial Intelligence, Isaac Asimov's Legacy and Rebooting a 
Cinematic Masterpiece for TV, Sydney Morning Herald, Sept. 29, 2016, 
http://www.smh.com.au/entertainment/tv-and-radio/westworlds-producers-
talk-artificial-intelligence-asimovs-legacy-and-rebooting-a-cinematic-
masterpiece-for-tv-20160923-grn2yb.html; George Dvorsky, Why Asimov's 
Three Laws of Robotics Can't Protect Us, Gizmodo (Mar. 28, 2014), 
http://io9.gizmodo.com/why-asimovs-three-laws-of-robotics-cant-protect-
us-1553665410; TV Tropes, Three-Laws Compliant, http://tvtropes.org/
pmwiki/pmwiki.php/Main/ThreeLaws
Compliant (last visited Nov. 29, 2016).
    \20\ EPIC, EPIC v. FAA, https://epic.org/privacy/litigation/apa/
faa/drones/ (last visited Nov. 29, 2016).
    \21\ Operation and Certification of Small Unmanned Aircraft 
Systems, 81 Fed. Reg. 42,064 (June 28, 2016) (to be codified at 14 CFR 
Parts 21, 43, 61, 91, 101, 107, 119, 133, and 183).
    \22\ See, e.g., Jim Giles, Cameras Know You by Your Walk, New 
Scientist, Sept. 19, 2012, https://www.newscientist.com/article/
mg21528835-600-cameras-know-you-by-your-walk/.
---------------------------------------------------------------------------
    This asymmetry poses a real threat. Along with the growing opacity 
of automated decision-making, it is the reason we have urged two 
amendments to Asimov's Laws of Robotics:

  <bullet> A robot must always reveal the basis of its decision

  <bullet> A robot must always reveal its actual identity

    These insights also may be useful to the Committee as it explores 
the implications of Artificial Intelligence.
Conclusion
    The continued deployment of AI-based systems raises profound issues 
for democratic countries. As Professor Frank Pasquale has said:

        Black box services are often wondrous to behold, but our black 
        box society has become dangerously unstable, unfair, and 
        unproductive. Neither New York quants nor California engineers 
        can deliver a sound economy or a secure society. Those are the 
        tasks of a citizenry, which can perform its job only as well as 
        it understands the stakes.\23\
---------------------------------------------------------------------------
    \23\ Frank Pasquale, The Black Box Society: The Secret Algorithms 
that Control Money and Information 218 (Harvard University Press 2015).

    We appreciate your interest in this subject and urge the Committee 
to undertake a comprehensive review of this critical topic.
            Sincerely,
                                            Marc Rotenberg,
                                                    EPIC President.

                                              James Graves,
                                    EPIC Law and Technology Fellow.

Enclosures

EPIC, ``Algorithmic Transparency''

cc: The Honorable John Thune, Chairman, Senate Commerce Committee
The Honorable Bill Nelson, Ranking Member, Senate Commerce Committee
                                 ______
                                 
             Algorithmic Transparency: End Secret Profiling
Disclose the basis of automated decisionmaking
Top News

  <bullet> EPIC Urges Massachusetts High Court to Protect E-mail 
        Privacy: EPIC has filed an amicus brief in the Massachusetts 
        Supreme Judicial Court regarding e-mail privacy. At issue is 
        Google's scanning of the e-mail of non-Gmail users. EPIC argued 
        that this is prohibited by the Massachusetts Wiretap Act. EPIC 
        described Google's complex scanning and analysis of private 
        communications, concluding that it was far more invasive than 
        the interception of a telephone communications, prohibited by 
        state law. A Federal court in California recently ruled that 
        non-Gmail users may sue Google for violation of the state 
        wiretap law. EPIC has filed many amicus briefs in Federal and 
        state courts and participated in the successful litigation of a 
        cellphone privacy case before the Massachusetts Judicial Court. 
        The EPIC State Policy Project is based in Somerville, 
        Massachusetts. (Oct. 24, 2016)

  <bullet> EPIC Promotes ``Algorithmic Transparency'' at Annual Meeting 
        of Privacy Commissioners: Speaking at the 38th International 
        Conference of the Data Protection and Privacy Commissioners in 
        Marrakech, EPIC President Marc Rotenberg highlighted EPIC's 
        recent work on algorithmic transparency and also proposed two 
        amendments to Asimov's Rules of Robotics. Rotenberg cautioned 
        that autonomous devices, such as drones, were gaining the 
        rights of privacy--control over identity and secrecy of 
        thought--that should be available only for people. Rotenberg 
        also highlighted EPIC's recent publication ``Privacy in the 
        Modern Age'', the Data Protection 2016 campaign, and the 
        various publications available at the EPIC Bookstore. The 2017 
        Privacy Commissioners conference will be held in Hong Kong. 
        (Oct. 20, 2016)
White House Report on the Future of Artificial Intelligence
    In May 2016, the White House announced a series of workshops and a 
working group devoted to studying the benefits and risks of AI. The 
announcement recognized the ``array of considerations'' raised by AI, 
including those ``in privacy, security, regulation, [and] law.'' The 
White House established a Subcommittee on Machine Learning and 
Artificial Intelligence within the National Science and Technology 
Council.
    Over the next three months, the White House co-hosted a series of 
four workshops on AI:

  <bullet> Legal and Governance Implications of Artificial 
        Intelligence, May 24, 2016, Seattle, WA

  <bullet> Artificial Intelligence for Social Good, June 7, 2016, in 
        Washington, D.C.

  <bullet> Safety and Control for Artificial Intelligence, June 28, 
        2016, in Pittsburgh, PA

  <bullet> The Social and Economic Implications of Artificial 
        Intelligence Technologies in the Near-Term, July 7, 2016, in 
        New York City

    EPIC Advisory Board members Jack Balkin, Danah Boyd, Ryan Calo, 
Danielle Citron, Ed Felten, Ian Kerr, Helen Nissenbaum, Frank Pasquale, 
and Latanya Sweeney each participated in one or more of the workshops.
    The White House Office of Science and Technology issued a Request 
for Information in June 2016 soliciting public input on the subject of 
AI. The RFI indicated that the White House was particularly interested 
in ``the legal and governance implications of AI,'' ``the safety and 
control issues for AI,'' and ``the social and economic implications of 
AI,'' among other issues. The White House received 161 responses.
    On October 12, 2016, The White House announced two reports on the 
impact of Artificial Intelligence on the U.S. economy and related 
policy concerns: Preparing for the Future of Artificial Intelligence 
and National Artificial Intelligence Research and Development Strategic 
Plan.
    Preparing for the Future of Artificial Intelligence surveys the 
current state of AI, its applications, and emerging challenges for 
society and public policy. As Deputy U.S. Chief Technology Officer and 
EPIC Advisory Board member Ed Felten writes for the White House blog, 
the report discusses ``how to adapt regulations that affect AI 
technologies, such as automated vehicles, in a way that encourages 
innovation while protecting the public'' and ``how to ensure that AI 
applications are fair, safe, and governable.'' The report concludes 
that ``practitioners must ensure that AI-enabled systems are 
governable; that they are open, transparent, and understandable; that 
they can work effectively with people; and that their operation will 
remain consistent with human values and aspirations.''
    The companion report, National Artificial Intelligence Research and 
Development Strategic Plan, proposes a strategic plan for Federally-
funded research and development in AI. The plan identifies seven 
priorities for federally-funded AI research, including strategies to 
``understand and address the ethical, legal, and societal implications 
of AI'' and ``ensure the safety and security of AI systems.''
    The day after the reports were released, the White House held a 
Frontiers Conference co-hosted by Carnegie Mellon University and the 
University of Pittsburgh. Also in October, Wired magazine published an 
interview with President Obama and EPIC Advisory Board member Joi Ito.
EPIC's Interest
    EPIC has promoted Algorithmic Transparency for many years and is 
has litigated several cases on the front lines of AI. EPIC's cases 
include:

  <bullet> EPIC v. FAA, which EPIC filed against the Federal Aviation 
        Administration for failing to establish privacy rules for 
        commercial drones

  <bullet> EPIC v. CPB, in which EPIC successfully sued U.S. Customs 
        and Border Protection for documents relating to its use of 
        secret, analytic tools to assign ''risk assessments'' to 
        travelers

  <bullet> EPIC v. DHS, to compel the Department of Homeland Security 
        to produce documents related to a program that assesses 
        ``physiological and behavioral signals'' to determine the 
        probability that an individual might commit a crime.

    EPIC has also filed amicus briefs supporting in Cahen v. Toyota 
that discusses the risks inherent in connected cars and has filed 
comments on issues of big data and algorithmic transparency.
    EPIC also has a strong interest in algorithmic transparency in 
criminal justice. Secrecy of the algorithms used to determine guilt or 
innocence undermines faith in the criminal justice system. In support 
of algorithmic transparency, EPIC submitted FOIA requests to six states 
to obtain the source code of ``TrueAllele,'' a software product used in 
DNA forensic analysis. According to news reports, law enforcement 
officials use TrueAllele test results to establish guilt, but 
individuals accused of crimes are denied access to the source code that 
produces the results.
Resources

  <bullet> Kate Crawford and Ryan Calo, There is a blind spot in AI 
        research (October 13, 2016).

  <bullet> We Robot 2017

  <bullet> We Robot 2016

  <bullet> Ryan Calo, A. Michael Froomkin, and Ian Kerr, Robot Law 
        (Edward Elgar 2016)

  <bullet> EPIC: Algorithms in the Criminal Justice System

  <bullet> Alessandro Acquisti, Why Privacy Matters (Jun 2013)

  <bullet> Alessandro Acquisti, Ralph Gross, Fred Stutzman, Faces of 
        Facebook: Privacy in the Age of Augmented Reality (Aug. 4, 
        2011)

  <bullet> Alessandro Acquisti, Price Discrimination, Privacy 
        Technologies, and User Acceptance (2006)

  <bullet> Steven Aftergood, ``Secret Law and the Threat to Democratic 
        Government,'' Testimony before the Subcommittee on the 
        Constitution of the Committee on the Judiciary, U.S. Senate 
        (Apr. 30, 2008)

  <bullet> Phil Agre, Your Face Is Not a Bar Code: Arguments Against 
        Automatic Face Recognition in Public Places

  <bullet> Ross Anderson, The Collection, Linking and Use of Data in 
        Biomedical Research and Health Care: Ethical Issues (Feb. 2015)

  <bullet> James Bamford, The Shadow Factory: The NSA from 9/11 to the 
        Eavesdropping on America (2009)

  <bullet> Grayson Barber, How Transparency Protects Privacy in 
        Government Records (May 2011) (with Frank L. Corrado)

  <bullet> Colin Bennett, Transparent Lives: Surveillance in Canada

  <bullet> Danah Boyd, Networked Privacy (2012)

  <bullet> David Burnham, The Rise of the Computer State (1983)

  <bullet> Julie E. Cohen, Power/play: Discussion of Configuring the 
        Networked Self, 6 Jerusalem Rev. Legal Stud. 137-149 (2012)

  <bullet> Julie E. Cohen, Julie E. Cohen, Configuring the Networked 
        Self: Law, Code, and the Play of Everyday Practice (New Haven, 
        Conn.: Yale University Press 2012)

  <bullet> Julie E. Cohen, Privacy, Visibility, Transparency, and 
        Exposure (2008)

  <bullet> Danielle Keats CItron & Frank Pasquale, The Scored Society: 
        Due Process for Automated Predictions, 89 Washington Law Review 
        (2014) 1

  <bullet> Cynthia Dwork & Aaron Roth, The Algorithmic Foundations of 
        Differential Privacy, 9(4) Theoretical Computer Science (2014) 
        211

  <bullet> David J. Farber & Gerald R Faulhaber, The Open Internet: A 
        Consumer-Centric Framework

  <bullet> Ed Felten, Algorithms can be more accountable than people, 
        Freedom to Tinker

  <bullet> Ed Felten, David G Robinson, Harlan Yu & William P Zeller, 
        Government Data and the Invisible Hand, 11 Yale Journal of Law 
        & Technology (2009) 160

  <bullet> Ed Felten, CITP Web Privacy and Transparency Conference 
        Panel 2

  <bullet> A Michael Froomkin, The Death of Privacy, 52 Stanford Law 
        Review (2000) 1461

  <bullet> Urs Gasser et. al., ed, Internet Monitor 2014; Reflections 
        on the Digital World Berkman Center for Internet and Society

  <bullet> Urs Gasser, Regulating Search Engines: Taking Stock and 
        Looking Ahead, 9 YALE J.L. & TECH. 124 (2006)

  <bullet> Jeff Jonas, Using Transparency as a Mask, (Aug. 4, 2010)

  <bullet> Jeff Jonas & Ann Cavoukian, Privacy by Design in the Age of 
        Big Data (Jun. 8, 2010)

  <bullet> Ian Kerr, Privacy, Identity and Anonymity (Sep. 1, 2011)

  <bullet> Dr Ian Kerr Prediction, Presumption, Preemption: The Path of 
        Law After the Computational Turn (Jul. 30, 2011)

  <bullet> Rebeca MacKinnon, Where is Microsoft Bing's Transparency 
        Report? The Guardian (Feb. 14, 2014)

  <bullet> Frank Pasquale, The Black Box Society: The Secret Algorithms 
        That Control Money and Information (Jan. 5, 2015)

  <bullet> Frank Pasquale, The Scored Society: Due Process for 
        Automated Predictions, 89 Washington Law Review 1 (2014) (with 
        Danielle Citron)

  <bullet> Frank Pasquale, Restoring Transparency to Automated 
        Authority, 9 Journal on Telecommunications & High Technology 
        Law 235 (2011)

  <bullet> Frank Pasquale, Beyond Innovation and Competition: The Need 
        for Qualified Transparency in Internet Intermediaries, 104 
        Northwestern University Law Review 105 (2010)

  <bullet> Frank Pasquale, Internet Nondiscrimination Principles: 
        Commercial Ethics for Carriers and Search Engines, 2008 
        University of Chicago Legal Forum 263 (2008)

  <bullet> Bruce Schneier, Accountable Algorithms (Sep. 21, 2012)

  <bullet> Latanya Sweeney, Privacy Enhanced Linking, ACM SIGKDD 
        Explorations 7(2) (Dec. 2005)

  <bullet> Tim Wu, TNR Debate: Too Much Transparency? New Republic

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
